<html>
<title> - OVERSIGHT OF FAMILY SEPARATION AND U.S. CUSTOMS AND BORDER PROTECTION SHORT-TERM CUSTODY UNDER THE TRUMP ADMINISTRATION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 OVERSIGHT OF FAMILY SEPARATION AND U.S. CUSTOMS AND BORDER PROTECTION 
           SHORT-TERM CUSTODY UNDER THE TRUMP ADMINISTRATION

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 25, 2019

                               __________

                           Serial No. 116-42

                               __________

         Printed for the use of the Committee on the Judiciary

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        Available http://judiciary.house.gov or www.govinfo.gov
        
                               __________
 

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-654                      WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------       
        
        
        
        
                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia, Ranking 
SHEILA JACKSON LEE, Texas                Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr., 
HENRY C. ``HANK'' JOHNSON, Jr.,          Wisconsin
    Georgia                          STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM McCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
  Vice-Chair                         KELLY ARMSTRONG, North Dakota
SYLVIA R. GARCIA, Texas              W. GREGORY STEUBE, Florida
JOE NEGUSE, Colorado
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas

        Perry Apelbaum, Majority Staff Director & Chief Counsel
                Brendan Belair, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              

                             JULY 25, 2019

                           OPENING STATEMENTS

                                                                   Page
The Honorable Zoe Lofgren, California, Chair, Subcommittee on 
  Immigration and Citizenship, House Committee l-- J) on the 
  Judiciary......................................................     1
The Honorable Doug Collins, Georgia, Ranking Member, House 
  Committee on the Judiciary.....................................     3
The Honorable Ken Buck, Colorado, Ranking Member, Subcommittee on 
  Immigration and Citizenship, House Committee on the Judiciary..     5
The Honorable Jerrold Nadler, New York, Chairman, House Committee 
  on the Judiciary...............................................    31

                               WITNESSES

Chief Brian S. Hastings, Chief of Law Enforcement Operations, 
  U.S. Border Patrol, U.S. Customs and Border Protection
    Oral Testimony...............................................     8
    Prepared Statement...........................................    11
Mr. Jonathan H. Hayes, Director, Office of Refugee Resettlement, 
  Administration for Children and Families, U.S. Department of 
  Health and Human Services
    Oral Testimony...............................................    18
    Prepared Statement...........................................    20
Commander Jonathan White, United States Public Health Service 
  Commissioned Corps, U.S. Department of Health and Human 
  Services
    Oral Testimony...............................................    32
    Prepared Statement...........................................    35
Mr. Joseph B. Edlow, Deputy Assistant Attorney General, Office of 
  Legal Policy, U.S. Department of Justice
    Oral Testimony...............................................    42
    Prepared Statement...........................................    44
Ms. Diana R. Shaw, Assistant Inspector General for Special 
  Reviews and Evaluations, Office of Inspector General, U.S. 
  Department of Homeland Security
    Oral Testimony...............................................    48
    Prepared Statement...........................................    50

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Document produced to the Committee by the U.S. Department of 
  Health and Human Services regarding the ``DHS Deterrence 
  Model,'' Submitted by the Honorable Zoe Lofgren................    67
Letter from the Honorable Ted Deutch to Office of Refugee 
  Resettlement Director Jonathan Hayes, Submitted by the 
  Honorable Ted Deutch...........................................    83
McClatchy article entitled, ``Obama administration fights to keep 
  family detention,'' Submitted by the Honorable Matt Gaetz......    93
Letter from the Honorable Debbie Mucarsel-Powell to Office of 
  Refugee Resettlement Director Jonathan Hayes, Submitted by the 
  Honorable Debbie Mucarsel-Powell...............................   118
VICE News article entitled, ``4,000 Migrant Kids Might Have to 
  Spend the Rest of Their Childhood in Federal Custody,'' 
  Submitted by the Honorable Veronica Escobar....................   131
Articles for the record entitled, ``What a Pediatrician Saw 
  Inside a Border Patrol Warehouse''; ``The Border Patrol Hits a 
  Breaking Point''; ``Reports of misconduct and sexual assault of 
  migrant kids surface at Yuma border facility'', and; ``Abner, 
  17, describes 11 days of hunger and thirst at Yuma's border 
  station''; Submitted by the Honorable Mary Gay Scanlon and the 
  Honorable Madeleine Dean.......................................   138
Articles for the record entitled, ``Autopsy Offers Jarring New 
  Details About the Death of a 16-Year-Old Guatemalan Boy''; 
  ``Plans to Close Carrizo Springs Demonstrate Conditions That 
  are Not in Children's Best Interests'', and; ``ICE Just Quietly 
  Opened Three New Detention Centers, Flouting Congress' 
  Limits''; Submitted by the Honorable Sylvia Garcia.............   170

                                APPENDIX

Statement of Church World Service, Submitted by the Honorable Zoe 
  Lofgren........................................................   183
Statement of the National Immigrant Justice Center, Submitted by 
  the Honorable Zoe Lofgren......................................   184
Statement of the American Immigration Council, Submitted by the 
  Honorable Zoe Lofgren..........................................   186
Questions for the Record Submitted by the Honorable Greg Stanton.   189
U.S. Border Patrol Responses to Questions for the Record 
  Submitted by the Honorable Greg Stanton........................   192
U.S. Department of Health and Human Services Responses to 
  Questions for the Record Submitted by the Honorable Greg 
  Stanton........................................................   195

 
 OVERSIGHT OF FAMILY SEPARATION AND U.S. CUSTOMS AND BORDER PROTECTION 
           SHORT-TERM CUSTODY UNDER THE TRUMP ADMINISTRATION

                              ----------                              


                        THURSDAY, JULY 25, 2019

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The committee met, pursuant to call, at 10:03 a.m., in Room 
2141, Rayburn House Office Building, Hon. Jerrold Nadler 
[chairman of the committee] presiding.
    Present: Representatives Nadler, Lofgren, Jackson Lee, 
Cohen, Johnson of Georgia, Deutch, Bass, Richmond, Cicilline, 
Swalwell, Lieu, Raskin, Jayapal, Demings, Scanlon, Garcia, 
Neguse, McBath, Stanton, Dean, Mucarsel-Powell, Escobar, 
Collins, Chabot, Gohmert, Jordan, Buck, Gaetz, Johnson of 
Louisiana, Biggs, Lesko, Reschenthaler, Cline, Armstrong, and 
Steube.
    Staff Present: Joshua Breisblatt, Counsel; Rachel Calanni, 
Professional Staff Member; Susan Jensen, Parliamentarian/Senior 
Counsel; Madeline Strasser, Chief Clerk; Brendan Belair, 
Minority Staff Director; Bobby Parmiter, Minority Deputy Staff 
Director/Chief Counsel; Jon Ferro, Minority Parliamentarian/
General Counsel; Andrea Loving, Minority Chief Counsel, 
Subcommittee on Immigration and Citizenship; Erica Barker, 
Minority Chief Legislative Clerk; and James Rust, Minority ICE 
Detailee.
    Ms. Lofgren. The House Committee on the Judiciary will come 
to order.
    And without objection, the chair is authorized to declare 
recesses of the committee at any time.
    Chairman Nadler is running a little bit late. So in order 
to get to our witnesses, the staff has asked that I begin, and 
he will give his opening statement upon his arrival.
    I want to welcome everyone to this morning's hearing on 
Oversight of Family Separation and CBP Short-Term Custody under 
the Trump Administration, and I will now recognize myself for 
an opening statement.
    We are here today to hold the administration accountable 
for its failure to effectively manage the humanitarian crisis 
at the border and for continuing to mistreat children and 
families. Nearly 6 months have passed since our first hearing 
on the Trump administration's family separation policy, and yet 
parents and children are still being separated and detained in 
deplorable conditions every day.
    Less than 2 weeks ago, Vice President Pence stated that 
U.S. Customs and Border Protection is providing compassionate 
care to immigrants in a way that ``every American would be 
proud of.'' But just 2 weeks earlier, DHS's own Inspector 
General released the second of two management alerts detailing 
the overcrowded and dangerous conditions at CBP facilities in 
Texas.
    Unlike the Vice President, I do not believe that Americans 
are proud of how we are treating these children, and I know of 
no parent who would want their child housed in conditions that 
deprive them of nutritious food, safe water, clean clothing, 
and a place to sleep, not to mention the soap, toothpaste, and 
toothbrushes that this administration in open court argued were 
not necessary for the health and sanitation of detainees.
    Acting Secretary McAleenan has stated that families are 
only separated when CBP is unable to confirm the relationship 
between the child and the person claiming to be the parent or 
legal guardian or when the child's safety is at risk. But the 
Government's own data disproves this. Out of 400 children 
separated from their parents between June 2018 and March 2019, 
only 3 percent were separated for these reasons. And of those 
cases, it is now clear that CBP made egregious errors in some 
of those separations.
    Take, for example, Maria--a pseudonym--a client of the 
National Immigration Justice Center, who was separated from her 
child upon arrival. One month later, Maria learned that her 
child had been taken from her because she had been identified 
as having a criminal history in her home country. Maria denied 
this, but it was not until lawyers obtained official documents 
from El Salvador proving that she had no criminal background 
that she was allowed to reunite with her son, a full 3 months 
later. When they finally got together, Maria's son was 
withdrawn and disconnected from his mother.
    While the Trump administration claims that its policies are 
the only way to manage the current influx of immigrants at the 
border, that is not true. Every administration has grappled 
with migration challenges, but none have exposed children and 
families to such appalling conditions. No administration has 
resorted to the cruelty of systematically separating kids from 
their parents as a method of deterrence.
    We are dealing with an administration that has dehumanized 
immigrant children and families and refuses to implement smart 
immigration policies. As a result, Border Patrol agents report 
low morale, high stress, and an inability to focus on their 
primary responsibility of protecting our borders. Asylum 
officers report that the migrant protection protocols, 
otherwise known the ``remain in Mexico policy,'' have made 
problems at the border even worse.
    A competent and capable administration would have planned 
for the expected arrival of families and children seeking 
protection and developed the necessary infrastructure to ensure 
that those who must be detained are held in humane conditions. 
A capable administration would identify and detain those 
individuals who may pose a risk to our country and release 
under supervision until an immigration hearing those who pose 
no risk, so that overcrowding is not an issue. But we are not 
dealing with a competent and capable administration.
    The administration's family separation policy has stained 
our Nation and will have lasting effects on those who are 
subjected to it. As a mother and a grandmother, my heart aches 
for all of them. But as a member of this committee, I know that 
real solutions are required, and we will keep bringing the 
administration before us until we find them.
    I would now recognize the ranking member of the Judiciary 
Committee, the gentleman from Georgia, Mr. Collins, for his 
opening statement.
    Mr. Collins. Thank you, Madam Chair.
    And here we are again. We have had this same hearing in 
February. We know that the crisis on the Southern border is 
being fueled by loopholes in our immigration laws. Border 
Patrol Chief Provost testified legislative changes were needed 
to get the situation under control. In fact, we have heard that 
over and over and over and over again.
    But the crisis has gotten worse. In February, the Border 
Patrol apprehended 66,000 individuals. That number would have 
been above--has been above 92,000 every month since, peaking at 
over 132,000 apprehensions in May alone.
    You know, just last week I was horrified and deeply 
affected when Secretary McAleenan told me that there are three 
ongoing cases where a small group of children, 5 to 8 in each 
case, had been used by dozens of different adults to cross our 
border, seeking release in the U.S. And my colleagues' claim is 
we care--look, I am going to stop. I am not going to read this.
    This all--you know what is dehumanizing? It is continuing 
to bring the same witnesses or the same people from the same 
agencies to talk about this over and over and over again. What 
is dehumanizing is doing that and not doing anything about it. 
That is what is dehumanizing.
    It is talking about a problem, talking about a problem, 
talking about a problem, and never putting a solution up. I 
have talked about this almost at every one of these so far, 
especially in the last few weeks. And look, my Democratic 
colleagues have ideas. I may disagree with those ideas, but put 
a bill up.
    I have a bill. Put mine up. Make amendments to it. Do 
whatever you want to do. That is what Congress is supposed to 
do. Dehumanizing is this. This is dehumanizing.
    And also what a competent and capable majority would do is 
actually put a bill forward. Instead, we are not a competent 
and capable majority, undoubtedly, using the words of the 
ranking member of the subcommittee. We are not capable and 
competent because we are not putting bills forward.
    We are having bash the President time, bash the 
administration time. This is all it was and all this is.
    I appreciate you being here to testify. Some of you have 
been here before. Some of you are replacing the ones who had 
already testified before. Mr. White, you are back again. Good 
to see you.
    This is what bothers me. I can read another opening 
statement, and we can ask questions, and we will all go through 
this. And we can talk about how the Trump administration is not 
competent and not capable. I think that this falls back on us. 
It falls back on this committee.
    Why has the majority not put a bill forward? We have heard 
that it doesn't work. We have heard from both administrations, 
the Obama administration and the Trump administration, that 
laws need to be fixed and worked on, but yet we don't do it.
    We put together this week, we passed on the floor, we 
passed out of this committee a bill that was a band-aid to fix 
a little bit of problem, which everybody ought to be treated 
humanely and as best they can at the border, and we need to 
have that. That needs to happen. But we just did it in such a 
way yesterday that it just applied to everybody and, again, 
applied to nobody in a sense.
    So as we look at this, as we go forward, you know, Madam 
Chair, I agree with you. You and I have worked on big things 
before, but what is dehumanizing is this hearing. What is 
dehumanizing is this hearing where we are going to talk about 
it again.
    And people come, and the folks in this audience, I am glad 
you are here. We are trying to work on a problem, but don't 
accept another hearing. Accept some answers. Accept some bills 
being put forward. Don't be fooled again.
    If you want to take part in a political positioning paper, 
then that is what we are doing today. Because we have already 
heard--there is not--no offense to our witnesses. We have heard 
your statements already before. So I don't know what is going 
to move us this time that didn't move us last time.
    This is becoming, unfortunately, a committee of press 
releases. That is it. Dehumanizing is taking people you say you 
care about, but doing nothing for them. That is dehumanizing.
    Competent and capable, the last time I understood Congress 
to pass legislation. I will be very slow. Pass bills that 
matter. Don't have hearings that are simply stunts.
    I think about these kids being used. I think about the 
issue of the Flores Agreement or the trafficking victims or the 
asylum issue, things that have been talked about by multiple 
administrations. And even under us, even under the previous 
Congress, I will go ahead and say it before anybody else does. 
Republicans didn't do anything.
    You know what was really funny? When they had a chance this 
year to work on the Dreamer bill, the majority leader went to 
the floor and said we could have worked on this last year. We 
were one signature away from passing the Dreamer bill, getting 
it off the table and passing it. Then why didn't you bring that 
bill back to the floor?
    There was one vote, or you had one signature away. Now you 
are in the majority. You should have been able to pass it and 
probably would have passed it with 40 or 50 votes. No, but I 
will tell everybody watching, you know the reason you didn't? 
Because we didn't have it political enough.
    The Dreamer bill, we had to add in everything else. Not 
that it could get passed, not that we could help the Dreamers, 
not that we could help the DACA recipients. We wanted a 
political stunt.
    If it wasn't, then I challenge you. Go ask the majority 
leader why he didn't bring back the bill from last year. I will 
tell you why. It is because it was something that would pass 
but didn't have everything else political on there.
    So, Madam Chair, I appreciate it. I couldn't read the rest 
of this. I mean, this is dehumanizing. This is showing a 
noncompetent and noncapable majority, and so a Congress that is 
willing to listen to problems and not act on problems.
    So here we go. Popcorn machine is ready. Anybody wants 
some, send the office over here. The show begins.
    I yield back.
    Ms. Lofgren. The gentleman yields back.
    I would note that the chairman of the committee will be 
recognized for his opening statement when he arrives. So at 
this point, I will recognize the ranking member for the 
Immigration Subcommittee, Mr. Buck, for his opening statement.
    Mr. Buck. Thank you.
    As I have been saying for months now, there is a crisis on 
the Southern border. What has the Democrat response been to the 
crisis? The majority spent the first 6 months of this year 
denying there was a problem. Some Democrats claim the crisis 
was manufactured. The House Democratic Whip even laughed at the 
crisis.
    What else have Democrats done? In February, Democrats cut 
funding for ICE detention beds in the omnibus spending bill. 
One article suggested the Democrats' bill would encourage ICE 
to detain fewer immigrants and asked will it work? We now know 
the answer. No.
    The committee heard testimony from Carla Provost, Chief of 
Customs and Border Protection, that her agents were facing a 
``border security and humanitarian crisis.'' On the very same 
day, the Democrat majority passed a resolution rejecting the 
President's emergency declaration targeted at addressing the 
crisis.
    House progressives objected to passing a supplemental 
funding bill a few weeks ago to provide needed resources to 
address the crisis. This crisis is not only being felt at the 
border, it is being felt in many small towns across the 
country. Recently, several mayors went to the border and saw 
the crisis firsthand. They commented on how it impacts their 
community.
    ``Cities were among the first to feel the impact of this 
crisis, and local communities have made extraordinary efforts 
to alleviate the human suffering,'' Rochester Hills, Michigan, 
Mayor Bryan Barnett has said. ``We are pleased the Congress 
recently provided some emergency funding, but it is clear that 
more must be done to meet the needs at the border.''
    Mesa, Arizona, Mayor John Giles said, ``We had a frank and 
candid discussion with Acting Secretary McAleenan about the 
realities that border cities face each day and the need for the 
Federal Government to find solutions that prioritize the health 
and well-being of asylum seekers without draining community 
resources.''
    ``We have had in the previous 3 months 5,000 people come 
through our shelter in Yuma,'' Mayor Douglas Nicholls said. 
``The City of Yuma is 100,000 people. So it is a big impact on 
our community. In the past 4 months, Yuma has spent $1.5 
million for migrant care.''
    Perhaps nowhere is the impact of Washington's failures and 
the Democrats' negligence more acutely felt by America's mayors 
than in the area of education. According to one estimate, 
educating the children of illegal immigrants poses a cost to 
America's public schools of $59.8 billion per year, with 98.9 
percent borne by State and local taxpayers.
    As illegal immigration increases, costs have skyrocketed, 
including for limited English proficiency programs that are a 
major drain on school budgets. Commenting on the impact of 
local government, Randy Capps of the Migration Policy Institute 
has said, ``Public education is where the real big cost comes 
in. The amount of taxes that the parents pay, it is not going 
to be as much as is spent on public education for their kids 
and food stamps for their kids.''
    Last week, the Immigration and Citizenship Subcommittee 
heard testimony that policies passed by Congress contribute 
greatly to USCIS processing backlogs. We have also heard 
congressional policy can have a devastating impact, encouraging 
and incentivizing illegal immigration. For example, the 
situation involving unaccompanied minors was made worse, much 
worse by legislation pushed by Senator Feinstein and passed by 
Congress in 2008. The number of unaccompanied children grew 
from 8,041 in 2008 to 50,036 last year, a 622 percent increase.
    The Federal agencies have sounded the alarm. Local 
governments have sounded the alarm. Think tanks have sounded 
the alarm. Republicans have sounded the alarm. The President 
has sounded the alarm. Despite this, Democrats refuse to 
address the root causes of the problem and, in turn, refuse to 
solve the crisis. They would rather ignore the problem or even 
make it worse than acknowledge the President is right.
    What do we need to do? First, we need a stronger commitment 
from Congress to secure the border, and this includes building 
the wall. Second, we need to pass H.R. 586. This bill will help 
keep families together while fixing some of the rules that 
currently tie the hands of DHS. It will close loopholes related 
to human trafficking, and finally, it will prevent frivolous 
asylum claims, allowing the agencies to focus on and prioritize 
genuine claims.
    I hear repeatedly from those on the other side of the dais 
that someone is not an illegal alien if they file an asylum 
claim. That is not true if the applicant has filed a fraudulent 
claim. In that case, the applicant is not in the country 
legally because they have committed immigration fraud.
    We need to enact reforms overriding the judicial settlement 
that ties the hands of the agencies responsible for securing 
our border. America will always be a place that welcomes legal 
immigrants. This great nation will always have a generous 
immigration policy, but we need an immigration system that 
works for America, and we cannot, cannot continue to ignore or, 
given Democrat policy priorities, make worse the crisis at the 
border.
    I look forward to hearing from our witnesses today and hope 
they will share with us what Congress can do to address the 
crisis and, even more, hope Democrats in Congress will not only 
listen, but take the right action.
    I yield back.
    Ms. Lofgren. The gentleman yields back.
    This is the Judiciary Committee's hearing on Oversight of 
Family Separation and CBP Short-Term Custody. We have two 
functions in Congress. One is passing bills, and second is 
oversight to see that the laws are being faithfully executed.
    Today, we have a number of witnesses who will help us 
understand whether the administration is falling short in its 
obligation to see that the laws are begin faithfully executed. 
I will introduce them now.
    Ryan Hastings is the Chief of the Law Enforcement 
Operations Directorate at the Border Patrol headquarters in 
Washington, D.C., where he is responsible for oversight of the 
day-to-day law enforcement operations at Border Patrol sectors. 
Chief Hastings has served with U.S. Border Patrol since 1995, 
and over the course of his tenure there, he has worked in 
various sectors and Border Patrol divisions in a variety of 
leadership positions. Prior to his current position, he served 
as chief patrol agent of the Buffalo sector from 2012 until 
November of 2017.
    Jonathan Hayes serves as the Director of the Office of 
Refugee Resettlement in the Administration for Children and 
Families at the Department of Health and Human Services. Prior 
to being named Acting Director in November and being formally 
installed as Director in February of this year, Mr. Hayes was 
chief of staff for the Office of Refugee Resettlement in the 
Office of Director.
    Mr. Hayes has also served as chief of staff to two Members 
of Congress and has experience in the private sector, 
specializing in broadcast sales and marketing, international 
trade and customs, and commercial airline operations.
    Jonathan White is Commander of the U.S. Public Health 
Service Commissioned Corps at the Department of Health and 
Human Services. He is currently a senior adviser in the Office 
of Emergency Management and Medical Operations, and he was the 
Federal health coordinating official for the Unaccompanied 
Alien Child Reunification Mission from June to December of 
2018.
    Commander White is a career public health officer who has 
worked with HHS for nearly a decade. He is a licensed clinical 
social worker, emergency manager, and certified public health 
professional.
    Joseph Edlow currently serves as the Deputy Assistant 
Attorney General with the Office of Legal Policy at the 
Department of Justice, where he focuses on immigration policy. 
Before joining the Department in 2018, Mr. Edlow worked in 
Congress for one of our own former Members, Mr. Raul Labrador 
of Idaho, and also served as his counsel for the Immigration 
Subcommittee.
    Prior to that, he worked with the Baltimore, Maryland, 
Immigration and Custom Enforcement field office, where, as 
assistant chief counsel, he represented DHS in removal 
proceedings and specialized in worksite enforcement, national 
security, and gang members.
    And finally, Diana Shaw was appointed the Assistant 
Inspector General for Special Reviews and Evaluations for the 
Department of Homeland Security of Inspector General in March 
of this year. Ms. Shaw has also served in several other 
leaderships positions with the Inspector General's office, 
including Assistant Inspector General for Legal Affairs, acting 
counsel to the Inspector General, Director of the Special 
Review Groups, and Acting Assistant Inspector General for 
External Affairs.
    Prior to joining the Office of the Inspector General, Ms. 
Shaw practiced law with a firm's white collar crime group, 
specializing in internal investigations and compliance 
counseling.
    We welcome all of our distinguished witnesses and thank 
them for participating in today's hearing, and now if you will 
please rise, I will begin by swearing you in.
    If you would please raise your right hand, do you swear or 
affirm under penalty of perjury that the testimony you are 
about to give is true and correct, to the best of your 
knowledge, information, and belief, so help you God.
    [Response.]
    Ms. Lofgren. And the record will note that each of the 
witnesses replied in the affirmative.
    And we will now receive your testimony. Please note that 
each of your written statements will be entered into the record 
in its entirety, and accordingly, I ask that you summarize your 
testimony in about 5 minutes.
    To help you stay within that timeframe, we have a lighting 
system. When the light switches from green to yellow, it means 
you have 1 minute to conclude your testimony. And when the 
light turns red, it means your 5 minutes is up. So we would ask 
you to try and finish up when that occurs.
    Chief, let us begin with you.

    TESTIMONY OF BRIAN S. HASTINGS, CHIEF, LAW ENFORCEMENT 
    OPERATIONS, U.S. BORDER PATROL, U.S. CUSTOMS AND BORDER 
  PROTECTION; JONATHAN H. HAYES, DIRECTOR, OFFICE OF REFUGEE 
 RESETTLEMENT, ADMINISTRATION FOR CHILDREN AND FAMILIES, U.S. 
   DEPARTMENT OF HEALTH AND HUMAN SERVICES; JONATHAN WHITE, 
  COMMANDER, UNITED STATES PUBLIC HEALTH SERVICE COMMISSIONED 
CORPS, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES; JOSEPH B. 
   EDLOW, DEPUTY ASSISTANT ATTORNEY GENERAL, OFFICE OF LEGAL 
    POLICY, U.S. DEPARTMENT OF JUSTICE; AND DIANA R. SHAW, 
      ASSISTANT INSPECTOR GENERAL FOR SPECIAL REVIEWS AND 
 EVALUATIONS, U.S. DEPARTMENT OF HOMELAND SECURITY, OFFICE OF 
                       INSPECTOR GENERAL

                 TESTIMONY OF BRIAN S. HASTINGS

    Mr. Hastings. Good morning, Chairman Nadler, Ranking Member 
Collins, and members of the committee.
    You have asked me here today to testify regarding the 
allegations that CBP has begun the widespread separation of 
children. Let me be clear. This is not occurring.
    Border Patrol has separated less than 1,000 children of the 
approximately 413,000 family members apprehended, or 0.45 of 
all families we have apprehended this fiscal year. Separation 
is an incredibly rare occurrence and only takes place in 
compliance with the President's June 20, 2018, executive order 
and preliminary injunction in the Ms. L. v. ICE case. The vast 
majority of separation involve adults who, due to their 
criminal or gang history, would not be eligible for release had 
they been apprehended alone.
    Bringing a child illegally into the U.S. should not entitle 
anyone to be released into U.S. communities. Many of the cases 
discussed recently involve family members other than parents or 
legal guardians. The laws passed by Congress define an 
unaccompanied alien child, or a UAC, as a child without a 
parent or a legal guardian. By law, Border Patrol is required 
to turn over all UACs to HHS.
    Since late June, Members of Congress have been vocal about 
the condition of Border Patrol facilities. Frankly, this 
attention came far too late to address the overwhelming 
situation that we have raised concerns about for the past 8 
months.
    You have heard the DHS Acting Secretary state that 4,000 
aliens in custody across the entire Southwest border is an 
acceptable level. We first surpassed 10,000 people in custody 
in April 13th of 2019. By May, apprehensions had spiked to more 
than 132,000, with as many as 19,500 people in Border Patrol 
custody.
    ICE and HHS were unable to keep pace with these record 
apprehensions. By June 6th, the number of UACs in our custody 
peaked at 2,700.
    After Congress passed a supplemental 3 weeks later 
providing HHS funding for additional bed space, the number of 
UACs in Border Patrol custody quickly dropped to 300. By 
contrast, ICE was denied supplemental funding for single adult 
bed space, and single adults continue to remain in Border 
Patrol custody much longer than they should.
    I am very concerned that if ICE is unable to take custody 
of these adults, we will have to start direct releases at the 
border. I can tell you that this will create a draw that we 
have never experienced and result in a complete loss of border 
security.
    As Chief Provost testified yesterday, the crisis is not 
over, and supplemental funding is only a band-aid. Apprehension 
numbers have decreased from May to June, but 94,000 aliens that 
we apprehended in the month of June was higher to any June 
dating back to 2000.
    The $1.1 billion provided to CBP in the supplemental will 
help us continue surging agents and officers to assist with the 
crisis, as well as continuing investing in soft-sided 
facilities, air and ground transportation, medical support, and 
consumables. We did not wait for additional funding to start 
making those investments. We had already contracted for six 
soft-sided facilities to provide additional capacity before the 
supplemental was passed.
    Additionally, we have purchased or leased 515 showers, 240 
portable toilets, 24 washers and dryers for the areas that we 
have the highest apprehensions. To be clear, there has never 
been a shortage of personal care items for detainees, such as 
food, snacks, diapers, formula, and hygiene products. We have 
purchased those items out of operational funding for months and 
will continue to do so with the additional supplemental 
funding.
    While the men and women of Border Patrol have been doing 
their best in an overwhelming situation for months, so much 
energy has been forced on vilifying them. In the same way 
inappropriate conduct by an agent is unacceptable, it is also 
unacceptable to broadly paint all agents as heartless and 
inhumane. On a daily basis, agents are feeding and caring for 
migrants, consoling children, and rescuing over 4,000 aliens 
that smugglers have placed into peril.
    They continue to perform their humanitarian mission, 
knowing that they are sacrificing the border security mission 
they were hired to do day after day with no one in sight. The 
funding that was provided to CBP and HHS will only last a few 
months and will do nothing to address the unsustainably high 
flow of illegal immigration.
    Without changes to our immigration system, we will be back 
here in a few months. The money will run out. The summer heat 
will subside, and smugglers will adapt, as they always do, to 
Mexico's efforts. Each of these endeavors are short-term fixes 
to a long-term problem. We need a functioning system that can 
quickly adjudicate immigration cases and asylum claims and 
quickly return those who are unsuccessful back to their home 
country.
    We need legal changes to allow the system to detain 
families together, quickly repatriate UACs, and set a higher 
bar for credible fear. Border Patrol has apprehended more than 
740,000 individuals so far this year, and without holistic 
changes to the immigration system, loopholes will continue to 
be exploited, smugglers will continue to profit, and border 
security will continue to be sacrificed.
    Thank you.
    [The statement of Mr. Hastings follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren. Thank you.
    Be pleased to hear from you, Director Hayes.

                 TESTIMONY OF JONATHAN H. HAYES

    Mr. Hayes. Thank you, ma'am.
    Chair Lofgren, Ranking Member Collins, and members of the 
committee, it is my honor to appear today on behalf of the 
Department of Health and Human Services.
    My name is Jonathan Hayes. As the Director of the Office of 
Refugee Resettlement, I manage the Unaccompanied Alien, or UAC, 
Program. I became the permanent Director earlier this year, and 
it is a privilege to serve in this role.
    I am continually impressed with the level of commitment and 
professionalism that I see in the ORR career staff and our 
grantees, who carry out round-the-clock operations in service 
of some of the world's most vulnerable children. I have visited 
nearly 50 UAC care provider shelters across the United States 
over the last year so that I could see firsthand the quality of 
care provided to these children.
    Prior to my time at ORR, I worked for two congressional 
Members for approximately 8 years. That experience provided me 
with firsthand knowledge of the important oversight role that 
you and your staff have to ensure that Federal programs operate 
successfully.
    I would like to first express the Department's appreciation 
and gratitude to Congress for passing the emergency 
humanitarian aid package. Immediately upon enactment of the 
supplemental appropriation, we restored the full range of 
services for UAC that we were unable to provide during the 
anticipated deficiency.
    The number of UAC entering the United States during this 
fiscal year has risen to levels we have never before seen. As 
of July 15th, DHS has referred more than 61,000 UAC to us, the 
highest number in the program's history. By comparison, HHS 
received 59,170 referrals in fiscal year 2016, the previous 
highest number of annual referrals on record.
    HHS currently has about 10,000 children in our care, though 
this number fluctuates on a daily basis. As of June, the 
average length of time that a child stays in HHS's custody is 
approximately 42 days, which is a dramatic decrease of 53 
percent from late November 2018, when the average length of 
care was about 90 days.
    During my tenure at ORR, we have issued four operational 
directives and revised our policies and procedures with the 
specific aim of a more efficient and safe release of UAC from 
our care and custody. HHS does not enforce immigration laws. 
The Department of Homeland Security and the Department of 
Justice perform those functions.
    In general, DHS separates parents from their children for 
reasons recognized by the Ms. L. court and agreed upon between 
DHS, HHS, and the American Civil Liberties Union. Those reasons 
include unverified familial relationship or fraud, criminal 
history, communicable diseases, danger to the child, or lack of 
parental fitness. DHS has also separated adults from children 
based on lack of parentage.
    Once HHS receives information from DHS that a child has 
been separated from a potential parent, we first try to 
establish communication with the separated adult, whether they 
are in the custody of DHS's Immigration and Customs 
Enforcement, DOJ's Federal Bureau of Prisons, or DOJ's U.S. 
Marshal Service. HHS works to confirm parentage and to confirm 
the separation.
    As of July 8, 2019, HHS has discharged 562 of these minors 
through removal with their parents through ORR's sponsorship 
process or through voluntary departure. When a child enters ORR 
care, care provider staff assess each child's needs, including 
special concerns such as family separation, known medical or 
mental health issues, and other risk factors. HHS is deeply 
committed to the physical and emotional well-being of all 
children in its temporary care.
    Staff at our care provider facilities are trained in 
techniques for child-friendly and trauma-informed interviewing, 
ongoing assessment, observation, and treatment of the medical 
and behavioral health needs of these children, including those 
who have been separated from their parents.
    Care providers must deliver services that are sensitive to 
the age, culture, and native language of each child. All 
children participate in weekly individual counseling sessions 
with trained social work staff, where the provider reviews the 
child's psychosocial well-being progress, establishes short-
term objectives for addressing trauma and other health needs, 
and addresses developmental and crisis-related needs, including 
those that may be related to family separation.
    If children have acute or chronic mental health illnesses, 
ORR refers them for mental health services within the 
community. It is the expressed desire and goal of both the 
political and senior career leadership of ORR to expand our 
capacity in such a manner as possible so that as many children 
as possible are placed into a permanent State-licensed 
facilities or transitional foster care while their sponsorship 
suitability determinations are made or their immigration cases 
are adjudicated in the event there is no sponsor available.
    HHS operates nearly 170 licensed care provider facilities 
and programs across the United States. These care providers 
include group homes, long-term therapeutic or transitional 
foster care, residential treatment centers, staff secure and 
secure facilities, and shelters. Our facilities provide 
housing, nutrition, routine medical care, mental health 
services, educational services, and recreational services, such 
as arts and sports, services that are similar to the domestic 
child welfare system.
    In closing, please know that my top priority and that of my 
team is to ensure the safety and well-being of the children who 
are placed temporarily in HHS care and custody as we work to 
quickly and safely release them to suitable sponsors.
    Thank you for the support of the UAC program and the 
opportunity to discuss our important work. I will be happy to 
answer any questions that you may have.
    [The statement of Mr. Hayes follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler [presiding]. Thank you, Director Hayes.
    Let me apologize for being late. I had unavoidable 
commitment, which I won't go into. But with the indulgence of 
the committee, I will give my opening statement now, and then 
we will resume the testimony.
    In February, the Judiciary Committee held a hearing to 
examine the Trump administration's indefensible and repugnant 
family separation policy. Since then, we have seen how this 
policy, along with many others, have collectively led to a 
humanitarian crisis at the border, evidenced by a devastating 
image of children and families squeezed into overcrowded and 
unsanitary facilities.
    Instead of addressing the root causes of migration and 
competently managing the challenges at our border, the Trump 
administration has chosen to dehumanize immigrants and exploit 
this crisis for political gain. In doing so, it has violated 
American laws and values and caused permanent damage to 
children and families.
    The inhumanity of family separation can be illustrated by a 
story that surfaced last week. According to National Public 
Radio, a Customs and Border Patrol, CBP, agent forced a 3-year-
old child with a serious heart condition to make a serious 
choice, an impossible choice, to decide which one of her 
parents she would stay with--her mother, who was allowed into 
the United States, or her father, who was forced to remain in 
Mexico. And she had to choose which one to go to in the 
presence of the CBP agent.
    But family separation is just one component of this crisis 
as it clear the conditions at border facilities have 
deteriorated to an unconscionable level. Twice in the last few 
months, the DHS Office of Inspector General released reports 
detailing the severe overcrowding and lack of sanitation at 
border facilities in Texas.
    These reports and others are appalling. Facilities lacking 
safe drinking water and age-appropriate food. A lack of showers 
and essential personal hygiene products like soap and 
toothpaste, with some detainees going days or weeks without a 
shower or the ability to brush their teeth.
    Children required to share combs during a lice outbreak. 
Allegations of sexual assault in retaliation against children 
at the Yuma processing center in Arizona. And tragically, the 
death of 10 people, including 3 children, in CBP custody over 
the last 10 months.
    Administration officials would have you believe that these 
incidents are the exception, not the rule. Yet we have also 
learned about racist and misogynous posts in a closed Facebook 
group of nearly 10,000 current and former CBP officers, almost 
half the force.
    Posted a joke about migrant--that joked about migrant 
deaths and disparaged female Members of Congress. The sheer 
size of this Facebook group and the fact that the Chief of the 
Border Patrol, Carla Provost, was allegedly a member at one 
time is deeply concerning.
    To be clear, this hearing is not an attack on individual 
Border Patrol agents but is an examination of the Trump 
administration's policies and the culture of disdain and 
cruelty toward immigrants that stems from the White House and 
apparently has deeply affected the agency.
    The inhumane treatment of children and families at the 
border must be examined in the context of these incidents. 
There must be accountability for the policy choices that got us 
here. The Trump administration has repeatedly claimed that 
border conditions are a result of increased numbers of asylum 
seekers. But let us be clear. We have the capability to have 
safely processed the influx of migrants and deal with the 
situation with compassion rather than cruelty.
    And indeed, if the problem were simply an increase in the 
number of asylum seekers, the solution would be an increase in 
bed capacity, an increase in the number of asylum judges, and a 
policy of letting--of quick trials and quick adjudications so 
that we don't face the question of long-term detention or long-
term release of asylum claimants without adjudication into the 
country.
    Instead, the administration has opted for policy choices 
that compromise safety and exacerbate the crisis, such as 
locking up all asylum seekers, which is unprecedented in 
American history, regardless of whether they pose any danger. 
Although I hope that one day hearings like this will no longer 
be necessary, today we must continue our efforts to bring these 
issues to light and to hold the Trump administration 
accountable for its shameful border policies.
    And before I finish my statement, I must note--take note of 
the statement of the ranking member. It is not true that we 
have had sufficient hearings on this. We will not have 
sufficient hearings on this until the problem is eliminated.
    Nor is it true that we have done nothing about this but 
hold hearings. Just last week, or earlier this week--time 
flies--we passed the Ruiz bill dealing with proper medical 
conditions at detention facilities. We passed the Dreamers Act. 
We have taken legislative action, and we will take more.
    The fact that the administration is hostile to all 
legislative action which doesn't evince a terrible hostility to 
immigrants and to people, to refugees who need asylum status is 
our problem, but it is not our fault.
    Before I call on the next witness, I want to thank Ms. 
Lofgren, the distinguished chair of our Immigration 
Subcommittee, for beginning the hearing in my absence.
    Commander White, you may proceed.

                  TESTIMONY OF JONATHAN WHITE

    Mr. White. Good morning, Chairman Nadler, Ranking Member 
Collins, members of this committee. It is my honor to appear 
before you today on behalf of the Department of Health and 
Human Services.
    I am Jonathan White. I am a career officer in the United 
States Public Health Service Commissioned Corps, a clinical 
social worker and emergency manager. I did serve as the HHS 
operational lead for the interagency mission to reunify 
children in ORR care as of June 26, 2018, who had been 
separated from their parents at the border by DHS.
    And currently, I am HHS's operational lead for the effort 
to identify children who had been separated from their parents 
at the border, referred to ORR, and discharged from ORR care 
prior to June 26, 2018.
    After Secretary Azar directed ASPR to help ORR comply with 
the executive order, we formed an incident management team. And 
our incident management team was tasked by the Secretary to 
take all reasonable actions to comply with the Ms. L. court 
orders.
    We work closely with DHS, including CBP and ICE, to 
identify all the parents of children in ORR care who met the 
court's criteria. And as a result, the current reporting of 
possible children of potential Ms. L. class members is 2,814 
children. And I want to be very clear. That count of 2,814 
children does not include children who were discharged by ORR 
before June 26, 2018, and it does not include separated 
children who were referred to ORR care after the 26th.
    Working in close partnership with colleagues in ICE, DOJ, 
and Department of State, we first worked to reunify children 
who had parents in ICE custody. This was an unprecedented 
effort, requiring a novel process, which we developed and the 
court approved.
    Under the compressed schedule required by court order of 15 
days for children under the age of 5 and 30 days for children 
between the ages of 5 and 17, we reunified 1,441 children with 
parents in ICE custody. Those were all the children of eligible 
and available Ms. L. class members in ICE custody.
    For children whose parents had been in ICE custody but had 
been released to the interior, we implemented an expedited 
reunification process. For parents who had left the United 
States, the ACLU, who serve as plaintiffs' counsel for the Ms. 
L. class, obtained from the parents their desire either for 
reunification in the home country or waiving reunification for 
children to go through standard ORR sponsorship process.
    And once we received the parents' desire, HHS, DHS, and DOJ 
coordinated with the ACLU, with the government of the home 
country, and with the child's family to ensure safe 
reunification into the care of the parents. So of the 2,814 
children, as of the 9th of July, we have reunified 2,167 with 
the parent from whom they were separated. Another 611 children 
have left ORR care through other appropriate discharges, and in 
most cases, that means released to a family sponsor such as the 
other parent, an adult sibling, an aunt, an uncle, a 
grandparent, a more distant relative, or family friend.
    There are 13 children still in ORR care who were separated 
but can't be reunified with their parent because the parent has 
a criminal history that poses a specific threat to child 
safety, or the child has made credible allegations of abuse by 
the parent. There are 14 children still in ORR care whose 
parents are outside the U.S. and have waived reunification. 
There are 6 children in care who further review determined that 
they were not separated. There is one child in care whose 
parents are in the U.S. and have waived reunification.
    So as of today, of the 2,814 children reported to the 
court, there is only one child left for whom the ACLU has 
advised a resolution. The parents' wishes will be delayed. We 
can't yet reunify that child.
    But those 2,814 children do not include all children who 
have ever been separated by the border and referred to ORR. It 
is only the number that were in care as of June 26th of last 
year, based on how the court defined the case. On April 25th, 
the court approved our plan to identify those children. So 
pursuant to those plans, teams of U.S. Public Health Service 
commissioned officers reporting to me have completed manual 
review of every child who was referred to ORR after July 1, 
2017, and discharged by June 26th.
    We send those lists from HHS to CBP and ICE, who conduct 
their own file review. That completed information is provided 
to the ACLU as part of a rolling delivery of lists ordered by 
the judge. And to date, the Federal interagency has provided 
the ACLU with three lists comprising 981 possible children of 
potential class members. The judge has given us until October 
25th to identify all the children, and I anticipate with great 
confidence that we will meet his deadline.
    Our mission is a child welfare mission. We seek to serve 
the best interests of each child. In almost all cases, the best 
interests of the child is to be with their parents or their 
family. That guides us in our work every day in the UAC program 
and in the reunification of separated children. We have done 
our best at the Department to achieve that goal.
    Thank you. I am glad to answer any questions you have for 
me.
    [The statement of Mr. White follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren [presiding]. Thank you, Commander.
    We would be happy to hear from you, Mr. Edlow, at this 
point.

                  TESTIMONY OF JOSEPH B. EDLOW

    Mr. Edlow. Thank you.
    Madam Chair, Chairman Nadler, Ranking Member Collins, and 
other distinguished members of the committee, thank you for 
this additional opportunity to speak with you today regarding 
the Department of Justice's role in the zero-tolerance 
prosecution policy.
    Congress has directed that certain violations of our 
Nation's immigration laws should be subject to criminal 
sanction. The Department of Justice's law enforcement role 
applies no less to these immigration crimes than it does to 
other categories of offenses.
    The current immigration system faces numerous challenges. 
Nationwide immigration enforcement is being dictated by court 
orders rather than by sound policy choices via rulemaking or 
congressional action. Exploitation of our asylum laws and the 
unaccompanied alien children provisions of the TVPRA have 
compounded the challenges and left the Federal Government with 
even fewer viable options to address our ever-growing crisis 
along the border.
    This administration has emphasized border security and 
immigration enforcement. Section 13 of President Trump's 
Executive Order 13767 directed the Attorney General to 
establish guidelines and allocate resources to ensure that 
Federal prosecutors accord a high priority to prosecutions of 
offenses having a nexus to the Southern border.
    In fulfillment of that order, on April 11, 2017, then-
Attorney General Sessions issued a memorandum to all Federal 
prosecutors outlining certain immigration-related offenses, 
including improper entry, as high priorities for prosecution. 
On April 6, 2018, then-Attorney General Sessions issued the 
memorandum entitled ``Zero Tolerance for Offenses under 8 
U.S.C. Section 1325(a).'' That memorandum directed Federal 
prosecutors along the Southern border to adopt, to the extent 
practicable and in consultation with the Department of Homeland 
Security, a zero-tolerance policy for all offenses referred for 
prosecution under Section 1325(a) by the Department of Homeland 
Security.
    That memorandum remains in force today, and illegal or 
improper entry, among other immigration crimes, remains a 
prosecution priority for the Department of Justice. Neither the 
executive order, nor Department of Justice directive called 
for, nor created a policy of family separation.
    The Department of Justice does not dictate which cases are 
referred by the Department of Homeland Security for 
prosecution, nor does it maintain a general exemption from 
criminal liability for parents. The Department of Justice also 
has no operational or logistical role in either the care or 
processing of aliens for removal, regardless of whether they 
are adults or minors.
    And I will note that the President issued an executive 
order on June 20, 2018, that directed the Department of 
Homeland Security, to the extent permitted by law and subject 
to the availability of appropriations, to maintain custody of 
alien families together during the pendency of any criminal, 
improper entry, or immigration proceedings involving their 
members.
    Criminal proceedings are separate from administrative 
immigration proceedings, and prosecution for illegal entry does 
not foreclose an alien's ability to make a claim to remain in 
the United States. As the issue of family separation and 
reunification has reached the Federal courts, I may be limited 
in my ability to speak to certain issues today, either because 
they are currently in litigation or because they are more 
properly directed to another agency that the Department 
represents in litigation.
    The Department of Justice stands ready to work with 
Congress to improve existing laws to avoid a reoccurrence of 
the present situation and to respond to the challenges that our 
immigration system faces.
    Thank you for this opportunity to speak before you today. I 
look forward to your questions.
    [The statement of Mr. Edlow follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren. Finally, but not least, Ms. Shaw, we will be 
pleased to hear from you.

                   TESTIMONY OF DIANA R. SHAW

    Ms. Shaw. Thank you, Chair Lofgren, Ranking Member Collins, 
and members of the committee. Thank you for inviting me to 
discuss DHS OIG's recent work on conditions at Customs and 
Border Protection facilities at the Southern border.
    My testimony today will focus on our two recent management 
alerts regarding dangerous overcrowding and prolonged detention 
observed by DHS OIG inspectors at the El Paso del Norte 
processing center in May of this year and at facilities in the 
Rio Grande Valley in June. We issued these alerts because the 
conditions we observed posed serious and imminent threat to the 
health and safety of DHS personnel and detainees.
    DHS OIG conducts unannounced inspections of CBP facilities 
to evaluate compliance with CBP's transportation, escort, 
detention, and search standards, otherwise known as TEDS 
standards. TEDS standards govern CBP's interactions with 
detainees, providing guidance on things like duration of 
detention, access to medical care, access to food and water, 
and hygiene.
    Our unannounced inspections enable us to identify instances 
of noncompliance with TEDS standards and to propose appropriate 
corrective action to the Department. Although CBP has struggled 
at times to achieve full compliance with detention standards, 
our recent unannounced inspections reveal the situation far 
more grievous than any our inspectors previously have 
encountered.
    For instance, when our team arrived at the El Paso del 
Norte processing center, they found the facility, which has a 
maximum capacity of 125 detainees, had more than 750 detainees 
onsite. The following day, that number had increased to 900.
    At all Border Patrol facilities we visited in the Rio 
Grande Valley, we also observed serious overcrowding among 
unaccompanied alien children, or UACs. Additionally, we found 
that individuals, including children, were being detained well 
beyond the 72 hours generally allowed under the TEDS standards 
and the Flores Agreement.
    For instance, at the centralized processing center in 
McAllen, Texas, many children had been in custody longer than a 
week. Some UACs under the age of 7 had been in custody for more 
than 2 weeks.
    Under these circumstances, CBP has struggled to comply with 
TEDS standards. For instance, although all facilities we 
visited in the Rio Grande Valley had infant formula, diapers, 
baby wipes, and juice and snacks for children, two facilities 
had not provided children access to hot meals, as is required, 
until the week we arrived.
    Additionally, children at three of the five facilities we 
visited had no access to showers, limited access to a change of 
clothes, and no access to laundry facilities.
    Space limitations also affect single adults. The lack of 
space has restricted CBP's ability to separate detainees with 
infectious diseases, including chicken pox, scabies, and 
influenza, from each other and from the general population. 
According to CBP management, these conditions also affect the 
health of Border Patrol agents, who are experiencing high 
incidence of illness.
    Further, there is a concern that the overcrowding and 
prolonged detention may be contributing to rising tensions 
among detainees. A senior manager at one facility in the Rio 
Grande Valley called the situation ``a ticking time bomb.''
    Despite these immense challenges, we observed CBP staff 
interacting with detainees in a professional and respectful 
manner and in general attempting to comply with the standards 
to the extent possible. Notwithstanding these efforts, Border 
Patrol requires immediate assistance to manage the overcrowding 
in its facilities.
    CBP is not responsible for providing long-term detention, 
and CBP facilities like those we visited are not designed to 
hold individuals for lengthy periods. However, with limited bed 
space available at ICE and HHS long-term detention facilities 
nationwide, detainees are left in CBP custody until a placement 
can be found.
    In its response to our recent management alerts, DHS 
described the situation at the Southern border as ``an acute 
and worsening crisis.'' Our observations comport with that 
characterization, which is why we have called on the Department 
to take immediate action to begin to remedy the situation.
    DHS OIG will continue to monitor and report on the 
situation at the border. In the meantime, however, the 
Department's leadership must develop a strategic coordinated 
approach that will allow it to make good on its commitment to 
ensure the safety, security, and care of those in its custody.
    I thank you. This concludes my testimony, and I look 
forward to your questions.
    [The statement of Ms. Shaw follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler [presiding]. Thank you, and before I begin 
the questioning, I want to thank Ms. Lofgren for assuming the 
chair in my absence.
    We will now proceed under the 5-minute rule with questions. 
I will begin by recognizing myself for 5 minutes.
    I want to start with the zero tolerance policy and its 
implementation. Chief Hastings, as part of our investigation 
and document request into zero tolerance, the Department of 
Homeland Security has given the Committee documents which 
detail allegations of how family--Border Patrol did family 
separations. Among these documents, the Department produced a 
chart of 850 complaints made to the DHS Office of Civil Rights 
and Civil Liberties reporting family separation between October 
2017 and June 2018. These documents are startling.
    The records we received detail separations of 12 children 
age 1 year old or younger and 124 children under the age of 5. 
Even more surprising, of the 12 children under the age of 1, 
nine of those separations occurred before the Trump 
administration enacted its zero tolerance policy. In many 
cases, family separations happened without warning and without 
giving the children a chance to say goodbye to their families. 
Many were not told where their families were being taken.
    For example, in May of 2018, a 14-year-old boy being held 
at the Rio Grande Valley Processing Center was ``separated from 
his father after a meal break while in custody and was told 
that his father would be deported.''
    An 11-year-old was ``called aside by an officer and then he 
did not see his father again.''
    Another child at only 7 years of age describes being 
separated from her father ``in the place where it was cold'' 
and that she did not understand why she could not see or talk 
to her father.
    Chief Hastings, are these tactics how Border Patrol agents 
were told to implement the zero tolerance policy?
    Mr. Hastings. Chairman, we sent over some documentation 
that you had asked the Secretary for prior, as far as the 
interim guidance that we follow currently for separations, and 
those are similar to what we followed before the zero tolerance 
policy.
    Chairman Nadler. I asked a question. Are these tactics that 
I just outlined, actual cases, how Border Patrol agents were 
told to implement the zero tolerance policy? Yes or no.
    Mr. Hastings. I do not know what tactics you are referring 
to.
    Chairman Nadler. I just read them. Were you listening?
    Mr. Hastings. I was listening, sir.
    Chairman Nadler. So then answer the question.
    Mr. Hastings. Sir, I have given you what we follow as far 
as guidance for separation; 88 percent----
    Chairman Nadler. Well, I will take it that----
    Mr. Hastings [continuing]. Are criminal.
    Chairman Nadler. I will take it that when we find the names 
of the people who did this, they will be disciplined for not 
following policy.
    Mr. Hastings. They were following policy to the best of my 
knowledge. I am not hearing----
    Chairman Nadler. If they did what I said, they were not 
following the policy that you just outlined.
    Mr. Hastings. I do not know the individual specifics in 
each of----
    Chairman Nadler. Were Border Patrol agents instructed by 
your agency to trick children so they could rip--so they could 
take their mother or father away from them while they did not 
know that that was happening?
    Mr. Hastings. No.
    Chairman Nadler. Did Border Patrol receive any training in 
how to do this?
    Mr. Hastings. Yes, we have training about how family 
separation, and we put out the guidance as you have seen.
    Chairman Nadler. If these reports are not an accurate 
description of how separations happened, can you please share 
how they did occur?
    Mr. Hastings. Again, I am not specific to the--I do not 
know the specific issues that you are talking to about the 
eight----
    Chairman Nadler. Well, how were they supposed to occur?
    Mr. Hastings. Pardon me?
    Chairman Nadler. How were they supposed to occur? How were 
children supposed to be separated from their families?
    Mr. Hastings. So the mother and father are informed prior 
to the separation.
    Chairman Nadler. You did not answer the question. How is it 
supposed to happen? The mother and father are informed, and the 
kid--I mean, how is it supposed to happen? The mother and 
father is informed that at some point today your kid is going 
to be taken away, in the middle of the night someone comes and 
snatches the kid? I take it that is not what is supposed to 
happen. What is supposed to happen?
    Mr. Hastings. So we would inform the mother or father of 
the charges and the reason and provide them the time to say 
goodbye to the child.
    Chairman Nadler. The charges and the reason and the time in 
advance?
    Mr. Hastings. Yes.
    Chairman Nadler. How far in advance?
    Mr. Hastings. It is going to vary depending upon the 
situation.
    Chairman Nadler. Vary from what? Hours? Minutes? Seconds?
    Mr. Hastings. I do not what specific one you are talking 
to, but----
    Chairman Nadler. What is the minimum time?
    Mr. Hastings. I do not have a minimum time.
    Chairman Nadler. So it could be 10 minutes?
    Mr. Hastings. It could be.
    Chairman Nadler. If you were choosing to deport parents 
without their children, how can the Trump administration claim 
there was a plan to reunify?
    Mr. Hastings. I am sorry, sir. I did not hear you.
    Chairman Nadler. If you were choosing to deport a parent 
without the children, how can the Trump administration claim 
there was a plan to reunify the family?
    Mr. Hastings. Because when we started this, we would place 
the A number and all of the information of the adult or the 
child on all of the paperwork so there could be reunification 
after the adult went through the appropriate legal action----
    Chairman Nadler. After the adult was deported, was the 
child supposed to be report--I am sorry. After it was 
determined that the adult was being deported, was the child 
supposed to be returned to the parent before the deportation or 
the parent is suddenly in some foreign country and the child is 
here?
    Mr. Hastings. That is probably a better question for HHS.
    Chairman Nadler. Who did the deportation?
    Mr. Hastings. We would do the deportation.
    Chairman Nadler. You would do the deportation while the 
child was in a different city in the United States?
    Mr. Hastings. We do not do the reunification, is my point, 
sir.
    Chairman Nadler. But you would do the deportation before 
the reunification without any knowledge of whether the parents 
were being reunified?
    Mr. Hastings. Yes.
    Chairman Nadler. So, in other words, you are kidnapping the 
child?
    Mr. Hastings. We are not kidnapping the child. We follow 
the guidelines that are out.
    Chairman Nadler. Deporting a parent without their child is 
literal kidnapping.
    The documents produced to the Committee also reveal that 
vulnerable children, such as those of a tender age or those 
with disabilities, were not given special accommodations or 
consideration in these facilities. For example, CBP separated a 
deaf-mute child from his father. The DHS database was not 
updated to reflect the child's special needs and did not record 
that the child had been separated from his father.
    Another report described a 10-year-old with developmental 
delays who was separated from his mother. No special effort was 
made to help him communicate with his parents.
    Chief Hastings, from these reports it appears that Border 
Patrol placed little to no consideration into the physical and 
psychological needs of children when separating them from their 
family. In what ways--this is my last question because my time 
is over--did CBP consider the risks of these vulnerable 
children--of taking these vulnerable children from their 
parents and keeping them in CBP facilities? What special 
arrangements were made for children with these kinds of--who 
were deaf or mute or whatever?
    Mr. Hastings. So I am not familiar with the two cases, but 
normally when we have incidents like that, we would alert HHS 
to the special needs.
    Chairman Nadler. You would alert HHS to the special needs 
before you gave the child to----
    Mr. Hastings. Sir, we are a short-term hold facility. We 
are trying to get the children into the proper care as quickly 
as possible.
    Chairman Nadler. Let me just read one thing. Contrary to 
what you said, we have case reports here. Just one line: ``On 
May 16, 2018, after a meal break while in custody, she was told 
by officers that her father would be deported, and she did not 
see him again.'' That is the way these things were done. It is 
inhuman and un-American.
    I yield back. The gentleman from Georgia.
    Mr. Collins. Thank you, Mr. Chairman. And I would help the 
witnesses to understand you are going to be here a little bit 
longer today because it is now my understanding that each 
member is going to have 7 minutes to question.
    Chairman Nadler. That is an incorrect understanding.
    Mr. Collins. Well, is the Chairman just going to continue 
to violate the 5-minute rule? Parliamentary inquiry.
    Chairman Nadler. The gentleman will proceed.
    Mr. Collins. Well, I am glad you are back because, as you 
related to me in answering my questions, you really did not 
answer my questions from my opening statement. Holding hearings 
until a problem is solved is about like saying I am going to 
scream at that wall until it changes color. It is not going to 
happen.
    So you can come back here, and you can, you know, be very 
direct with our CBP agent who is here and give out-of-context 
situations in which people were detained without going through 
the actual determination of how they are actually determined 
right now. If separation occurs under these conditions, which 
were actually under the Obama administration and the Trump 
administration, if a determination is made that the parent or 
legal guardian poses a danger to a child, is otherwise unfit to 
care for a child, has a criminal history, has a communicable 
disease, or is transferred to a criminal detention setting for 
prosecution for improper entry, or the CBP is unable to confirm 
that the adult is actually the parent or legal guardian or the 
child's safety is at risk, if you are advocating to keep that 
child in those conditions, then maybe we have a whole different 
issue.
    And then to go back to we have not done anything, I will 
stand by exactly, and you can explain to this--Mr. Chairman, 
you can explain to the members here and the audience why the 
Ruiz bill is simply--again, we have talked about it--is not 
solving the underlying problem. Treating them well and having 
good conditions is something we would all agree upon, but the 
bill was so out of context and applied to everywhere in the 
Custom and Border Patrol, not just the southern border, which 
is where we are having this issue, which made it impractical in 
many ways. This is the issue we are dealing with.
    So you can come back and try to correct me, but all you did 
this morning and even your line of questioning confirmed what 
we know, that this is simply another way, as we mentioned every 
time the Trump administration--we mention it every time. We do 
not talk about what actually is happening or why they are being 
separated. And if you want to keep kids with unfit parents, you 
want to keep kids who have actually been bought and paid for 
and brought across the border, then if that is what you are 
advocating, then maybe we need to talk about something 
different.
    But here is the issue, and I know--it seems to me you are 
frustrated. This has been a long week. But this is not helping. 
And to say you are going to hold hearings until the problem is 
solved, that probably caps this week. That just probably, you 
know, just comes to the point of capping this week. We are 
going to hold hearings. We are going to talk about it. It 
reminds me of when my kids were little and they were going to 
hold their breath until I gave them their way. We are just 
going to sit here and hold and hope and hope and hope.
    Look, put bills in this Committee that actually affect the 
underlying aspect, which the Obama administration talked about 
the Flores decision, we have talked about the Trafficking 
Victims Protection Act, we have talked about asylum standards. 
What we want to do, though, is talk about what is going on at 
the border, which we have already done many times. And I am not 
saying this oversight should not be done. We are, and we are 
holding accountable our Border Patrol, our ICE agents. We are 
holding that because we have had multiple hearings about it. 
But at a certain point in time, hearings do not solve problems. 
Bills do.
    So, Mr. Chairman, I am glad that you came back and answered 
me, but you did not answer. In fact--well, let me rephrase 
that. You did. You showed that we are not interested in solving 
the problem, because if you believe truly that hearings will 
solve problems, then I have maybe a basic misunderstanding of 
how a bill becomes a law. Because what would happen is you have 
several of these hearings, which we have had--you have had a 
lot of people here who are interested, and I am sympathetic 
with the audience being here to be interested in this. But what 
are we giving them? Nothing, except a hearing. Tweetable 
moments. Press releases. This is what we are doing.
    This Committee is better than this. There are great members 
on both sides who have legitimate arguments for bills. I have 
listened passionately to my members on the other side, sitting 
in front of me and on down the dais, who have ideas about this. 
But we are not bringing the bills to a markup.
    Now, it could take 3 or 4 or 5 days or even 2 weeks to have 
these markups, but so what? Are these kids and these families 
not important enough on the border? Or is just better to have 
another hearing that does not solve anything?
    Now, you can justify it any way you want to. You can say 
you passed a bill last week that actually, you know, does--you 
know, has standards. That is great. Again, any logical look at 
it would say it is overbroad and could have been supported 
bipartisanly until we add in things that were unworkable. By 
the way, we did not talk to the Border Patrol before we 
actually did the bill to see how we could actually put this in 
implementation. I guess that is a small oversight.
    But, again, I am not sure why both sides are even 
continuing to show up at these hearings, except to be used as 
props. The five of you are here, you have gone--you are really 
technically going to testify to nothing. Some of you are back 
again, as we said, Mr. White and others back again. Some of you 
are back again replacing somebody who was here earlier. You are 
not going to--you know, Mr. Hayes, you are just testifying, 
somebody who was here earlier. You are not going to say a lot 
that we do not know. We all know there is a crisis. We at least 
all now at least come to the conclusion there is a crisis. But 
it is--as I said before, using the words of the Ranking Member 
of the Subcommittee, it is dehumanizing to sit here and do this 
and not solve a problem. And as was said about the 
administration, a competent and capable administration would 
have solved this. A competent and capable committee would have 
put bills forward instead of doing this.
    So, again, spin it however you want to. This is what you 
want to do, go for it, but do not tell these people in this 
audience the disingenuousness that you are fixing something. Do 
not try it. They may buy it for a few minutes. Some of them 
have been buying it for 7 months. But they are not going to buy 
it forever. Pretty soon they are going to ask: When can you 
have honest debate? You have got more numbers than I have got. 
You can put bills up here, and you can pass them because you 
are the majority. But we are not even doing that.
    So, Mr. Chairman, I appreciate you answering the question 
or attempting to, but instead you made my point. Crank the 
press release, get the Twitter going, talk about it before, but 
this is where we are at. This is the problem. For those of you 
who are here hoping for an answer, you are not getting it. If 
you were hoping for a show, you are getting it. But if you want 
an answer, I am sorry. Both Republicans and Democrats right now 
are not able to give you that answer, whether you like the 
answer or not. Maybe it is time we start going back to doing 
legislation that actually addresses the problem that the Obama 
administration and the Trump administration have both pointed 
out.
    With that, I yield back.
    Chairman Nadler. The gentleman yields back.
    The gentlelady from California, the Chairperson of the 
Immigration Subcommittee, is recognized.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I do think it is important to take a look at what is going 
on in the facilities run by the Department of Homeland Security 
and to determine whether they meet the standards that Americans 
expect of them.
    The Ranking Member's rather extravagant comments that 
somehow this does not matter, that it is abusive to us, I think 
are unwarranted.
    We did receive, as the Chairman has indicated, 
documentation from the Department itself outlining complaints 
that were made by the Office of Civil Rights in DHS to--about 
what was going on in these facilities. For example, one of the 
allegations is an 8-year-old boy who was separated from his 
mother, and then his report was that CBP officers kicked him 
and hit him with a shoe when he was sleeping in order to wake 
him up, that he was physically hurt by this.
    I assume, Chief Hastings, that that is not considered 
acceptable behavior on the part of your officers, kicking and 
hitting children?
    Mr. Hastings. No, ma'am. Kicking and hitting children are 
not. But what I would imagine that was was a check to make sure 
the individual was okay. We do do those checks and go through 
periodically and make sure that the individuals in our custody 
are okay.
    Ms. Lofgren. So you would kick a child to see if he is 
okay?
    Mr. Hastings. No. May tap his shoe or may shake the child 
lightly to see if they are awake and check to see how they are 
doing, frankly.
    Ms. Lofgren. There are, as I say, hundreds of reports from 
the Department itself of misconduct--there is no other way to 
describe it--in the treatment of children by Border Patrol 
agents. I do not mean to say that every Border Patrol agent is 
engaging in misconduct. Obviously not. I have met many Border 
Patrol agents who are going the extra mile to try and help 
people out, and I honor them for their efforts. But when there 
are reports or allegations of misconduct, what steps do the 
Border Patrol take to investigate these allegations? And how 
frequently are investigations opened to these reports?
    Mr. Hastings. So all allegations are taken seriously. We 
have posters and signs in many of our stations--all stations 
that provide numbers that the detainees can call and provide 
these complaints that they may have.
    Ms. Lofgren. Well, that is not really the question. The 
question is: What is your Department doing once those 
complaints are made to track them down and hold officers 
accountable if they are true?
    Mr. Hastings. So either OIG, the Office of the Inspector 
General, or our internal CBP OPR, Office of Professional 
Responsibility, will do the investigation upon each of those 
and provide the investigation to us or to members to follow 
through with----
    Ms. Lofgren. All right. The OIG is actually taking a new 
look at that for us, so we will look forward to her report on 
that.
    Commander White, I want to turn to you to discuss the 
intent behind the zero tolerance policy. The last time you 
testified here--and we do appreciate that--you noted that there 
were multiple meetings in the first half of 2017 with officers 
from DHS where the possible family separations were discussed. 
According to the documents provided to the Committee, in July 
2017 you sent out a memo dated on the 4th of July which 
discussed how ORR would need an additional resources if the 
``DHS deterrence model'' was employed. The deterrence model 
included DHS instituting family separations and a memorandum of 
agreement between ICE and HHS where fingerprints of all people 
in the household would be shared with ICE. And, without 
objection, Mr. Chairman, I would ask that this memo be made 
part of the record.
    Chairman Nadler. Without objection.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren. Can you describe why it was called a ``DHS 
deterrence model''?
    Mr. White. Yes, ma'am. We used a number of different models 
of possible future scenarios to anticipate how many beds we 
would need.
    Ms. Lofgren. Okay.
    Mr. White. We constructed a deterrence model in part as 
part of my effort to convince HHS leadership that separating 
children would not be possible for us to support operationally, 
that we would never have the funding or the beds to do it, 
because I believe that was an important part of the argument 
against separation.
    Ms. Lofgren. Right. Can you tell us who those ideas were--
who in the Department discussed those ideas with you?
    Mr. White. I discussed these issues primarily with the 
leadership to whom I reported. That was then-Director of ORR 
Scott Lloyd, then-Acting Assistant Secretary for the 
Administration of Children and Families Steven Wagner, and 
then-Counselor to the Secretary for Human Services Maggie Wynn.
    Ms. Lofgren. Thank you very much. I would just note, you 
know, Mr. Collins was dismissive of these efforts, but we did 
get a report from the OIG, the Inspector General, in September 
of 2018 that noted that so-called pre-verbal children, children 
who could not speak, were separated from their parents without 
a picture taken of them, without a fingerprint taken of them, 
without any kind of identification or bracelet put on them, 
simply removed. So to say that this is an unnecessary exercise, 
that everything is dandy, that we just need to pass a bill, I 
do not think you need to pass a bill to say do not destroy 
families at the border with callous disregard.
    And I yield back, Mr. Chairman.
    Chairman Nadler. The gentlelady yields back.
    The gentleman from Texas.
    Mr. Gohmert. Thank you.
    Chief Hastings, I appreciate your Department's efforts in 
the face of such massive vilification. I know a great many 
border patrolmen, and those men and women are not appreciated. 
The huge, huge majority are doing a thankless job.
    Director Hayes, I want to say thank you and your Department 
for the efforts in bringing down the outrageous 92-day or 90-
plus-day average of detention during the Obama--during the 
previous years down to 42 days. I appreciate the attempted--or 
the response, the class response that each of you have had 
during vilification of yours and your employees' efforts to be 
humane and yet enforce and follow the law, even being 
castigated for having cages and things like that that were 
constructed by the Obama administration. It is deeply saddening 
that there was none of this vilification for inappropriate and 
outrageous conduct that occurred during the Obama 
administration. It seems to be all new-found now that there is 
a different administration that happens to be part of the 
Republican Party.
    I just cannot help but reflect historically, having served 
in the United States Army at a time that was very unpleasant to 
be in the military, when we were often ordered not to wear our 
uniforms off post because of violence against military members. 
I did not know if we would see a day when people would be proud 
of servicemembers and proud of first responders again. But one 
of the results of the horrible evil that occurred on 9/11 was 
how Americans came together afterwards and people began to 
appreciate first responders and our military. It was 
incredible, the transformation.
    But during the last administration, we saw law enforcement 
being vilified over and over and over again, and the President 
himself was immediate to jump on a side before he knew the 
facts, and he was usually wrong on which side he attempted to 
defend. And as a result, we are now--we have been seeing 
attacks on law enforcement, attacks on people who are trying 
simply to do their job, protect the country, protect people, 
``serve and protect'' as a motto. And it has become outrageous 
again, what is happening.
    Chief Hastings, let me ask you, in the emergency bill that 
has been touted that the majority passed, how much of that 
money came to your Department to help you provide additional 
and better services?
    Mr. Hastings. Thank you, sir. So $1.1 billion came to our 
Department. The majority of that is for soft-sided facilities 
and for facilities due to the influx that we are seeing.
    Mr. Gohmert. Did that allow you to hire any more people to 
handle the dramatic increase we have had crossing our border?
    Mr. Hastings. No, sir.
    Mr. Gohmert. So you are still that limited in your 
personnel in carrying out your job?
    Mr. Hastings. We are seeking assistance in 2020 to begin 
with a prosecution assistant, basically, that would help us 
provide some of the support for the detainees that we are 
seeing who we currently right now have DHS volunteers and other 
volunteers from other agencies assisting with now during the 
surge. What I am talking about is feeding, caring, 
transportation, hospital watch, those types of duties.
    Mr. Gohmert. Well, I know the Immigration Chair referenced 
that we need to allow the Border Patrol to get back to their 
primary duty of protecting the border. I have spent so many 
nights on the border. I do not see your Border Patrol agents 
protecting the border. They are required not to protect it but 
just in-process everybody that comes through. I would think 
protecting would mean you protect the border from people coming 
in illegally. There is none of that, is there?
    Mr. Hastings. Our agents are frustrated right now. We have, 
you have heard before, 40 to 60 percent of our agents in RGV, 
El Paso, and even in Yuma who are doing the humanitarian 
mission and the care and feeding primarily. And we know that 
the border security mission is being affected. We know that.
    Mr. Gohmert. Thank you.
    Chairman Nadler. The time of the gentleman has expired.
    The gentleman----
    Mr. Gohmert. And just to note the Chair has been gravely 
unfair. You said yesterday no one is above the law, but to be 
clear, the Chairman is above the rules.
    Chairman Nadler. Mr. Gohmert, I took 6 minutes and 38 
seconds. Mr. Collins took 6 minutes and 40 seconds. You just 
took 5 minutes and 45 seconds. We are trying to get back, at 
the request of the minority, towards 5 minutes, which is why I 
did not stop you at 5 minutes. And it is all at the discretion 
of the Chair, in any event.
    The gentleman from Tennessee is recognized.
    Mr. Cohen. Thank you, Mr. Chair.
    Mr. Hayes, Director Hayes, you are the permanent Director 
now, are you not?
    Mr. Hayes. Yes, sir, Congressman, I am.
    Mr. Cohen. When did you become the permanent Director?
    Mr. Hayes. March 3rd.
    Mr. Cohen. And you became the temporary Director after the 
previous Director was--he resigned?
    Mr. Hayes. He transferred to a different department or 
division within the Department of Health and Human Services. 
That was late November of last year, sir.
    Mr. Cohen. And when did you come to the Department?
    Mr. Hayes. I came to the Department in mid-June of 2018.
    Mr. Cohen. And before that, what was the largest number of 
people you had ever administered as an administrator?
    Mr. Hayes. As supervision, it would be here on the Hill, 
sir, congressional staff.
    Mr. Cohen. What was that job that you had before you went 
over there?
    Mr. Hayes. I was the chief of staff.
    Mr. Cohen. Chief of staff for a Congressperson. Was that 
Mrs. Lesko?
    Mr. Hayes. No, sir.
    Mr. Cohen. Who was it? Who were you the chief of staff for?
    Mr. Hayes. Prior, I was chief of staff to Congressman Trent 
Franks and Congressman Steve Southerland.
    Mr. Cohen. Steve Southerland, remind me who he is.
    Mr. Hayes. He is from the Florida Panhandle, sir.
    Mr. Cohen. Florida Panhandle. Okay. Isn't that the--okay. 
Thank you, sir.
    Mr. Hayes. You are welcome, sir.
    Mr. Cohen. This Department needs somebody who has 
experience in running major agencies, who has experience and 
not political background. And I am afraid that is part of the 
problem we have. But Congresswoman Escobar knows so much more 
about this subject. She is on the front lines. I want to yield 
my time to her, and I appreciate--I yield.
    Ms. Escobar. Thank you so much, Congressman.
    Just for the record, El Paso, Texas, in 2017 was the 
testing ground for family separation, and so, unfortunately, I 
think that there are far more children who had been ripped from 
the arms of their parents than Americans even begin to realize. 
I think the numbers are much higher. I think we as a country 
have damaged an entire generation of Central American children, 
and this abhorrent policy, unfortunately, continues to this 
day.
    Chief Hastings, you mentioned that family separation is a 
rare occurrence. You were referring to separation between a 
biological parent and a biological child. Is that correct?
    Mr. Hastings. That is correct, ma'am.
    Ms. Escobar. So to many of us, a family actually is a much 
broader definition than a biological parent and a biological 
child. To many of us, family is a grandparent, a grandchild, an 
aunt or uncle, and a niece or nephew, siblings, et cetera. 
Chief--and, actually, before I begin my questioning, I feel 
like I have to say I do not believe that Border Patrol agents 
are bad. Chief, you and I were in a meeting where I expressed 
my gratitude to the many really great agents who are working 
hard and are overwhelmed. But there is no doubt that there are 
some really bad agents as well, and it is important that we 
root out those who dehumanize migrants so that those who do not 
feel that way do not feel despondent.
    But isn't it true, Chief, that we are still separating 
families today, children who are taken from--the grandmother 
who is separated from a grandchild, for example, isn't that 
still occurring?
    Mr. Hastings. So we are following the definition by TVPRA, 
and the definition is a parent or legal guardian.
    Ms. Escobar. So a grandmother who enters with a grandchild, 
they are being separated. Is that correct?
    Mr. Hastings. That is correct.
    Ms. Escobar. And that child then becomes an unaccompanied 
minor. Is that correct?
    Mr. Hastings. Yes, ma'am.
    Ms. Escobar. Okay. Also, you said in your testimony that, 
``Our laws also prohibit the removal of individuals to 
countries where they face the likelihood of torture.'' But we 
know that people are being forced into Mexico even when they 
have a credible fear of being there, and they have expressed it 
to Border Patrol, but Border Patrol is forcing them anyway at 
that point in what is a violation of both Section 241(b)(3) of 
the Immigration and Nationality Act as well as the principle of 
non-refoulement under international law.
    In my district in El Paso, we know that over 11,000 people, 
many of them families, are waiting in Mexico for their asylum 
hearings. We know of a specific case, for example, where two 
young families were returned to Ciudad Juarez and, while 
running errands, their fathers were kidnapped, beaten, and then 
released. These families had to fight hard not to be returned.
    Chief Hastings, why is Border Patrol violating U.S. and 
international law by forcing people to wait in Mexico when they 
have expressed a credible fear of residing there or they have, 
in fact, experienced kidnapping, rape, or other violence?
    Mr. Hastings. So, ma'am, are you referring MPP or are you--
--
    Ms. Escobar. Yes.
    Mr. Hastings. Okay. So with MPP----
    Chairman Nadler. The time of the gentlelady has expired. 
Yeah, the witness can answer the question. I am sorry.
    Mr. Hastings. With MPP, if the subjects do claim fear, we 
take them to CIS. CIS will determine if there is fear. If there 
is fear determined, then they will go through the asylum case. 
If they do not claim fear, they will be returned to Mexico 
under the Mexican Protection Program, MPP.
    Ms. Escobar. And just for the record, we have innumerable 
examples in El Paso, Texas, where they have claimed fear, and 
they have been returned anyway.
    Chairman Nadler. The time of the gentlelady has expired.
    The gentleman from Colorado.
    Mr. Buck. Thank you, Mr. Chairman.
    Chief Hastings, do you receive combat pay when you come to 
the Hill?
    Mr. Hastings. No, sir.
    Mr. Buck. Well, you should. How long have you been with 
Border Patrol?
    Mr. Hastings. A little over 24 years, sir.
    Mr. Buck. Are you what is considered a career official?
    Mr. Hastings. I am a career law enforcement official, yes, 
sir.
    Mr. Buck. Well, thank you for your service, first of all. 
And, second of all, you have served under approximately how 
many different administrations?
    Mr. Hastings. Three or four, sir.
    Mr. Buck. And have you seen any of those administrations 
target children for hostile activity?
    Mr. Hastings. No, sir.
    Mr. Buck. Have you ever heard of an administration ordering 
the Border Patrol to kidnap a child?
    Mr. Hastings. No, sir.
    Mr. Buck. Did you hear the Chairman's opening statement?
    Mr. Hastings. I did, yes, sir.
    Mr. Buck. Did you hear the story about a 3-year-old being 
forced to choose between two parents?
    Mr. Hastings. I did.
    Mr. Buck. Have you heard--let me ask it this way: Are you 
aware of that incident?
    Mr. Hastings. I am. So if I understand that incident, I 
think we actually looked into that at the request of--I am not 
sure if it was a committee or the Chairman. But in this 
specific incident, the child was not asked to choose if he was 
going to return with the father and mother. That was while they 
were in custody, he was--we did not have a dual head of 
household holding cell, so he was asked would he rather stay 
with his father or mother while he was in Border Patrol 
custody. He was ultimately reunited with his entire family and 
sent back to Mexico under the MPP program. So there was no 
child separation.
    Mr. Buck. Okay. So one parent was not deported, as the 
Chairman indicated, one parent was not deported and another 
parent kept in the country and the child had to choose between 
whether to leave with the deported parent or stay in the 
country.
    Mr. Hastings. That was which cell he went to while he was 
in our custody. He returned to Mexico with both parents.
    Mr. Buck. Okay. Thank you for clarifying that because I 
think it is important. If we are not going to deal with facts, 
if we are going to start tearing at heart strings, let us make 
sure that the underlying facts or at least the stories are 
accurate before we start talking about those particular 
incidents.
    Chief, are you aware that the human smuggling business in 
Mexico, Guatemala, the Northern Triangle is a multi-billion-
dollar business?
    Mr. Hastings. Yes, and it is thriving right now.
    Mr. Buck. And what does it mean to be a multi-billion-
dollar business? In other words, who is making that money? Are 
they legal agencies making that money, or are these cartels and 
illegal organizations?
    Mr. Hastings. So it is illegal organizations, transnational 
criminal organizations that are profiting on the backs of the 
people who are coming today.
    Mr. Buck. And when you say ``on the backs of,'' have you 
heard of--have you read intelligence reports where there are 
instances of children being purchased so that individuals can 
enter this country illegally?
    Mr. Hastings. Yes. Children are treated and all aliens are 
treated as a commodity, frankly, with no care to their personal 
safety. And we see time and time again. I have testified 
before. We see kids put on pool toys by smugglers and cross 
across the Rio Grande Valley--the Rio Grande River, and then 
when our agents try to make an interdiction or assist, we see 
smugglers kick the kid off of these toys so they can make a 
safe getaway back to the south or to the Mexico border, 
essentially little care to no care for those that they are 
smuggling.
    Mr. Buck. Okay. And is this a result of a policy that--a 
recent policy from the Trump administration? And when I say 
``is this,'' is the crisis at our border, is the treatment of 
young people a result of a policy from the Trump 
administration? Or is it just a fact that the surge in 
immigration has left the facilities overwhelmed?
    Mr. Hastings. The facilities are overwhelmed by far. We 
have--our facilities were not built for this type of 
demographic that we are seeing today. They were built for the 
demographic of primarily returning quickly to Mexico. They were 
not built for what we are seeing today. They are short-term 
facilities. They are not meant to hold long term.
    Mr. Buck. And I have to tell you something. I have heard 
the testimony from the Inspector General's office. I agree that 
there are serious problems, and we have got to address those 
serious problems, by increasing the facilities, increasing 
personnel, and also changing our laws so we do not incentivize 
this kind of surge. But to blame Border Patrol or this 
administration for what is happening is shameful. And I thank 
you and I yield back.
    Chairman Nadler. The gentleman yields back.
    The gentleman from Georgia.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman.
    Chief Hastings, it is your testimony that human smuggling 
on the border is a billion-dollar-per-year business?
    Mr. Hastings. Yes, it is.
    Mr. Johnson of Georgia. Where did you get that information 
from?
    Mr. Hastings. Because we hear intelligence reports and 
speak with those who come across the border----
    Mr. Johnson of Georgia. That is what somebody has--that is 
what you have heard. Okay. I got you. But, listen, do you have 
a Facebook account?
    Mr. Hastings. I do not.
    Mr. Johnson of Georgia. And do you have a Twitter account?
    Mr. Hastings. I do not.
    Mr. Johnson of Georgia. So it was recently revealed that 
there is a secret Facebook group made up of 9,500 current and 
former Border Patrol members. Are you aware of that secret 
group?
    Mr. Hastings. I have read the ProPublica report. Yes, sir, 
I am aware.
    Mr. Johnson of Georgia. And many of this group's Facebook 
posts have been racist, misogynistic, xenophobic, and 
dehumanizing. They have targeted Members of Congress, members 
of this Committee, and also dead migrant children. In 
particular, the posts that callously made light of the death of 
a Guatemalan teenager at a border station in Texas, those posts 
are truly despicable. Are you aware of those posts?
    Mr. Hastings. I am, sir, and those are inappropriate and 
they are being investigated, and if found to be true, the 
appropriate disciplinary action will be taken. We have already 
provided cease-and-desist letters to all of those individuals 
that were on the posts. Some have been relieved of their law 
enforcement duties as well.
    Mr. Johnson of Georgia. How many of those individuals were 
on that post?
    Mr. Hastings. I know of approximately 50 cease-and-desist 
letters that have gone out, and I am not sure, a handful more 
or less of administrative actions or administrative duties 
where agents are basically not doing law enforcement duties 
while they await the outcome of the disciplinary.
    Mr. Johnson of Georgia. I see. I am particularly troubled 
by reports that CBP leadership knew about this secret Facebook 
group for years. Are you aware of that?
    Mr. Hastings. I have seen the reports, but I did hear Chief 
Provost testify yesterday, and I know that the Chief I think 
mentioned she had been on Facebook nine times in a year, and 
that was primarily, frankly, to search herself to try and find 
out what the agents thought about how she was doing as a Chief.
    Mr. Johnson of Georgia. And you are familiar with the fact 
that she has actually posted on that secret Facebook group?
    Mr. Hastings. I have seen the article. I believe she posted 
one time in reference to a Jeopardy question that asked how 
quickly she had been a supervisor within Border Patrol or 
something to that effect.
    Mr. Johnson of Georgia. And that is what you have heard, 
but you have not talked with her.
    Mr. Hastings. I know she--yes, I have talked with her. She 
is in my chain of command, and I talk to her daily. But that is 
all I am aware she has ever posted.
    Mr. Johnson of Georgia. I see. Did she tell you that 
herself or that is something that somebody else told you?
    Mr. Hastings. That is what I heard her say during her 
testimony yesterday, and that is what I have heard her say to 
me before.
    Mr. Johnson of Georgia. Do these racist and xenophobic 
posts in that Facebook group concern you as a member of Border 
Patrol leadership?
    Mr. Hastings. They do. It is inappropriate, and we are 
taking the appropriate actions.
    Mr. Johnson of Georgia. Now, let me ask you--and thank you, 
sir--Inspector General--or, excuse me, Ms. Shaw. You testified 
before the Immigration and Citizenship Subcommittee earlier 
this month that the Inspector General's office is looking into 
this secret Facebook group. Correct?
    Ms. Shaw. That is correct. We are not looking at individual 
posts by individual members, but we are conducting a review to 
determine who within CBP and DHS leadership was aware of the 
group and the postings, when, and what, if any, action they 
took.
    Mr. Johnson of Georgia. And will you be looking to identify 
the current Border Patrol members involved in this group, and 
including additional members of Customs and Border Patrol 
leadership?
    Ms. Shaw. That is not currently within the scope. To the 
extent that we are looking at who within leadership was aware 
of it, it could come into scope, but primarily membership 
within the group and individual postings I believe is being 
handled by CBP's Office of Professional Responsibility.
    Mr. Johnson of Georgia. And if you identify specific Border 
Patrol members where disciplinary action may be taken, will you 
refer that to the CBP's Office of Responsibility?
    Ms. Shaw. We would, yes.
    Mr. Johnson of Georgia. And what is the timeline for this 
investigation?
    Ms. Shaw. We are in very early stages. It is time-
sensitive. We would hope to be able to complete field work in 2 
to 3 months and have reporting ideally before the end of the 
calendar year. But we have to follow the leads where they take 
us.
    Chairman Nadler. The time of the gentleman has expired.
    Mr. Johnson of Georgia. Thank you.
    Chairman Nadler. The gentleman from Louisiana.
    Mr. Johnson of Louisiana. Thank you, Mr. Chairman. Thank 
you all for being here.
    I want to echo the sentiment that has been expressed by 
Ranking Member Collins, by Mr. Buck, and so many others. We 
just have extraordinary respect for the work that you all do in 
these agencies, and it is heroic and under extreme duress these 
days. And we are grateful that you come continually to answer 
these questions, even though, as has been expressed, we do not 
seem to be getting to many solutions. We want to do that.
    In light of that, let me ask you a couple of questions 
about the credible fear issue, and I will ask Mr. Edlow these 
questions. But let me just say for those who are taking notes 
that the current threshold to establish credible fear is that 
the asylum applicant must be able to show ``significant 
possibility''--that is the quote--of persecution if they return 
to their home country. One U.S. Supreme Court decision found 
that this threshold is satisfied if there is only a 10-percent 
chance of persecution.
    In fiscal year 2018, there were 99,035 total asylum 
applications, and DHS agents determined that under the current 
standard 74,677 met the criteria. Of that number, only 16 
percent of credible fear cases were actually approved later by 
immigration judges.
    It is abundantly clear the current credible fear threshold 
is contributing to the severe backlog of asylum cases in our 
immigration courts and, unfortunately, contributing to the 
delay of families who are legitimately fleeing persecution.
    So here is a question for Mr. Edlow. Do you believe that 
the unprecedented surge in family units crossing the southern 
border has exposed faults in the credible fear standard under 
our existing asylum laws?
    Mr. Edlow. Thank you, Congressman. The position of the 
Department and, frankly, the administration is that the 
credible fear standard, along with other loopholes, has 
provided some impetus for the increase in crossings.
    Mr. Johnson of Louisiana. I think that bears of common 
sense. And let me ask you, do you believe it is possible that 
the current lax credible fear standard can act as a catalyst 
for southern border crossings that endangers these family units 
in the process?
    Mr. Edlow. Again, the administration has long said that 
illegal crossings do come with a great deal of danger, so 
anything that acts as a catalyst to do so would increase danger 
to families and to children.
    Mr. Johnson of Louisiana. The last Congress, numerous 
officials, including then-Attorney General Sessions, Secretary 
Nielsen, Director of CISNA stated in response to previous 
questions that statutory changes are necessary to enhance the 
process of assessing what constitutes credible fear. Do you 
agree with them that the credible fear standard needs to be 
raised to ensure the protection for those that are truly 
fleeing persecution?
    Mr. Edlow. Congressman, I think any legislative changes the 
Department would like to see, we would be happy to work with 
the Congress in perfecting those changes and are willing to 
provide technical assistance as needed.
    Mr. Johnson of Louisiana. I am grateful for that. I filed a 
bill to do that in the last Congress. It made it through this 
Committee in a bipartisan fashion, and Ranking Member Collins 
and I have filed it again.
    Would you speak briefly to the failure to appear rate in 
immigration court for non-detained family units?
    Mr. Edlow. Yes. I believe what you are referring to is what 
has been actually wrongly called a pilot program. From 
September until--it is continuing. The Executive Office for 
Immigration Review has studied \1\ specifically the family 
units within ten cities, the cases that are being filed within 
ten cities. Of those numbers, there has been about 64,000 cases 
that have been filed in those courts.
---------------------------------------------------------------------------
    \1\ Mr. Edlow requested this be changed to ``tracked''.
---------------------------------------------------------------------------
    Of the completed cases, there has been about 17,000 
completed. Over 13,000 have resulted in an in absentia order, 
which would translate to about 80 percent of the total 
completed cases were completed with an in absentia order.
    Mr. Johnson of Louisiana. Thank you. I think we have got to 
work on that.
    Real quickly, I have about less than a minute left. Mr. 
Hayes, isn't true that DHS is separating children where there 
is a potential danger to the child? I know this has been 
discussed today, but we just want to reiterate this for the 
record.
    Mr. Hayes. So, in regards to any specifics, I defer to my 
colleagues at DHS. But I do know in the intakes process at the 
Office of Refugee Resettlement, we are informed of certain 
separations due to concern for safety of the child, yes, sir.
    Mr. Johnson of Louisiana. We hear a lot about sex 
trafficking and the rest, and if a child comes across and is 
not easily identified to be with a parent, isn't it appropriate 
for us to take appropriate measures to protect the child, to 
separate that child from that adult? Doesn't that make sense to 
everyone?
    Mr. Hayes. I would defer that law enforcement-minded 
question to my colleague at DHS.
    Mr. Johnson of Louisiana. Would you follow up on that?
    Mr. Hastings. So 88 percent of those that we have separated 
so far this fiscal year have been for criminal or gang history 
for the endangerment to the child. The best example I can give 
is about 2 or 3 months ago we had a child cross with their 
father, immediately claim that her father had raped her the 
night before in Mexico, and we separated that group.
    Mr. Johnson of Louisiana. It would be inhumane to do 
anything else.
    I yield back. Thank you.
    Chairman Nadler. The time of the gentleman has expired.
    The gentleman from Florida.
    Mr. Deutch. Thank you. Thanks, Mr. Chairman.
    Mr. Chairman, during the Committee's February 26th 
oversight hearing on the administration's family separation 
policy, I entered several documents into the record that were 
turned over by HHS detailing a high number of alleged sexual 
assaults of unaccompanied children in the custody of ORR. And 
since the February 26th hearing, I have been attempting to work 
with ORR to identify changes that need to be made to ensure the 
safety for unaccompanied children being held at facilities 
across the country.
    On April 22nd, ORR assisted in arranging a visit to the 
Homestead facility, my second visit to the facility. The staff 
was accommodating during my visit. The tour was extremely 
informative. And following up on the tour, Director Hayes, 
following up on the tour, I sent you a letter on June 7th with 
several questions and requests for documents. I just received a 
response yesterday evening that my letter had been received--I 
am grateful for that--and that the information was being 
compiled.
    Mr. Chairman, I ask unanimous consent to submit my letter 
dated June 7th to Director Hayes for the record.
    Chairman Nadler. Without objection.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Deutch. Thanks, Mr. Chairman.
    Director Hayes, during my visit to Homestead, the staff 
there confirmed that operating a facility like that costs three 
times as much as operating a permanent facility, and unlike 
temporary influx facilities, permanent facilities are subject 
to Federal, State, and local laws meant to protect the welfare 
of children.
    So what I would like to ask and I ask in my letter and what 
I would like you to tell us this morning is whether ORR is in 
the process of finding less expensive alternatives to 
facilities like Homestead for unaccompanied minors, and I guess 
fundamentally the question is: Are you in the process of 
closing the Homestead facility?
    Mr. Hayes. Thank you for the question, Congressman. I want 
to first give you my commitment that we will respond to that 
letter just as quickly as we can.
    Mr. Deutch. I appreciate that.
    Mr. Hayes. You are welcome, sir.
    I will say that, as I mentioned in my testimony, I want to 
thank you and the leadership of the House of Representatives 
for helping get the supplemental. One of the main priorities of 
myself, Assistant Secretary Lynn Johnson, and Secretary Azar is 
to absolutely increase the number of permanent State-licensed 
beds available for receiving of children from Customs and 
Border Protection at HHS. That is something that we are equally 
committed to at both the political and the career leadership of 
ORR.
    Mr. Deutch. And do you have any information in the 
possibility of Homestead providing information on when the 
Homestead temporary facility will be shut down?
    Mr. Hayes. So as of this morning, sir, our census at 
Homestead is down to 829. We have not designated any additional 
children to Homestead since July 3rd, and we are in the process 
of drawing that down given the higher discharge numbers that we 
are seeing as well as the lower referrals coming across the 
border.
    Mr. Deutch. Great. Let me ask you some questions that I 
asked in my letter, but perhaps you can answer them. The 
Homestead facility staff stated that General Dynamics has 
contracted with the facility to provide sexual abuse training, 
and I had asked for copies of the contract with General 
Dynamics and details regarding that curriculum. Is that 
something that you can provide to us quickly?
    Mr. Hayes. I do not know if I can provide it quickly, sir, 
but I will certainly go back to our team and look into it.
    Mr. Deutch. In 6 weeks, so it is no longer quickly, but if 
you could help with that, I would appreciate it.
    Mr. Hayes. I will check into that, sir.
    Mr. Deutch. Also, the Homestead facility staff informed me 
that DHS, ORR, and Comprehensive Health Services include the 
Prison Rape Elimination Act, PRIA, and other standards in their 
contract provisions. We have been trying to get a copy of the 
contract between the Government and Comprehensive Health 
Services. We would also like to see copies of the subcontracts 
just to see the extent to which those requirements are 
incorporated. Can we get copies of those contracts?
    Mr. Hayes. I will go back to the Department, and we will 
look into that, sir. If I may just add one thing, it is not 
just GDIT that does some of the oversight. There was also 
Federal oversight. There was State and local official 
oversight. It is a very broad, multipronged approach.
    Mr. Deutch. That is actually--there is State and local when 
they submit to them, which gets me to my last question.
    Mr. Hayes. Yes, sir.
    Mr. Deutch. The Homestead facility staff gave me a briefing 
about the database that keeps track--a national database that 
keeps track of every allegation and serious incident that 
occurs at that facility and throughout the country, every 
facility housing unaccompanied minors. It tracks when a staff 
person is fired. It tracks what happens when allegations are 
made.
    Can you provide the Committee with information from the 
database on how many assault cases have resulted in the 
termination of an employee nationwide, how many were resolved 
in disciplinary actions, what disciplinary actions were taken 
against the staff person, and, most importantly, how many cases 
of sexual abuse are being investigated and are ongoing 
nationally?
    Mr. Hayes. We will look at that letter, sir, and respond as 
quickly and as we are able. I will note for this Committee's 
information that there are three different types of sexual 
misconduct. There is inappropriate sexual behavior, sexual 
harassment, and sexual abuse. And I will note that the number 
of actual sexual abuse is very small and most often involved 
children amongst children. But we will work to get that 
information.
    Mr. Deutch. As I said, Mr. Chairman, as I said at our last 
hearing, one case is too much, and please----
    Mr. Hayes. I 100 percent agree.
    Mr. Deutch. And please, please, do not try to make us feel 
better by suggesting that sexual harassment is somehow less 
objectionable that we should tolerate sexual harassment.
    Mr. Hayes. That was not my intention, sir.
    Mr. Deutch. I appreciate that.
    Mr. Hayes. We are in agreement.
    Chairman Nadler. The time of the gentleman has expired.
    The gentleman from Virginia?
    The gentleman from Arizona.
    Mr. Biggs. Thanks, Mr. Chairman. So, Chief, you testified 
about the human trafficking business right now is in excess of 
a billion dollars, maybe more than $2 billion. Is that fair?
    Mr. Hastings. It is fair. Yes, sir.
    Mr. Biggs. And the gentleman from Georgia might have 
implied that your testimony about this was based on some 
intelligence reports, briefings, and he said, quote, ``or 
something you heard,'' close quote.
    An intelligence briefing is not just gossip between folks 
coming across the border illegally and agents. It is an 
intelligence briefing, I assume.
    Mr. Hastings. That is correct, sir.
    Mr. Biggs. Please describe what goes into an intelligence 
briefing.
    Mr. Hastings. So we have a multitude of intelligence agents 
working in the field who work closely with sources of 
information, work closely with those that come through our 
process, in order to determine the amounts that individuals 
from different countries are being charged, how much they are 
being charged to be smuggled into the U.S., and that is how 
primarily, in short, how we get the information of what they 
are being charged to be transited up illegally through the 
U.S., or into the U.S.
    Mr. Biggs. So you can make that testimony with some 
confidence in the intelligence briefings you received.
    Mr. Hastings. Yes, sir.
    Mr. Biggs. So we have been talking about family separation, 
and on the monitors before you, onto the sides, is what we call 
permanent family separation. Brandon Mendoza, a Mason City 
police officer, son of Marianne Mendoza, who is one of my 
constituents, was killed by an illegal alien who had been 
deported multiple times. They are permanently separated.
    Grant Ronnebeck--yeah, that is Grant on the right--Grant 
was working as a clerk when he was shot in the face and 
murdered by another individual who had been here and deported 
multiple times, including have multiple felony convictions. 
This is permanent separation.
    If you want to solve separation we would do more than have 
hearings, because there isn't anybody in this room that doesn't 
want to deal with this situation that are horrific along the 
border.
    We should fix Flores. We should allow for detention of 
family units for more than 22 days and extend it back to 45 
days, allowing us hopefully to resolve their issue before the 
courts more quickly.
    Down in Yuma, not too many months ago, is a facility 
designed for 250 people. When we were there, there were 750-
plus, and last time I checked they were over 1,200. It is a 12-
hour facility. It is not a detention facility. It is a holding 
facility, to process individuals and move them along in this 
system that is the most thorough, due process-giving system of 
immigration in the world. It is not because CBP is infiltrated 
with people who hate people. It is because the surge is so 
overwhelming to the system, the facilities.
    CBP found, in an investigation, that Charleston, South 
Carolina, and several other cities, had the same sponsor for 
multiple individuals. Fifty people going to the same address. 
In their investigation they found that they had a cartel 
affiliate running a human trafficking ring, and when they went 
there to bust it, much to their surprise they had the local 
LEOs, they had the CBP, they had ICE, they had FBI involved.
    They found three small children there. They didn't even 
know about the children. They knew that the adults were being 
trafficked and basically treated like slaves. Well, these three 
children had been ceded over, either rented or sold, through 
the drug cartels, the human trafficking cartels. They were able 
to get those children out of that situation. That person was 
charged.
    They report to me that there are literally hundreds of 
these rings in this country. Thousands of children are 
separated on a monthly basis by these human traffickers and 
parents giving them that--moving them over to these 
traffickers. Conditions are terrible. We have to enact the laws 
and see enforcement and provide the resources necessary to 
resolve those issues.
    Thank you, Mr. Chairman.
    Chairman Nadler. The gentleman yields back.
    The gentleman from Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman. I just want to say 
at the outset, Mr. Chairman, there was a lot of discussion from 
our colleagues on the other side of the aisle about inaction by 
Congress. I would remind them that we have appropriated an 
additional $4.5 billion to address this crisis on the border. 
We passed legislation just yesterday to set standards for care 
for individuals who are in detention. We passed the DREAM Act 
and temporary protective status legislation, and today we will 
pass temporary protective status for Venezuela.
    Oversight is also part of our responsibility, so I invite 
my Republican colleagues to join us in some of the work of 
actually responding to this crisis.
    And I want to start with you, Ms. Shaw. You issued what are 
called management alerts. Is that correct?
    Ms. Shaw. Yes.
    Mr. Cicilline. And a management alert is issued in this 
case because you found, and I quote, that you ``identified 
issues that posed a serious, imminent threat to the health and 
safety of CBP personnel and detainees requiring immediate 
action by the department.'' Is that correct?
    Ms. Shaw. Yes.
    Mr. Cicilline. And you detail those in your written 
testimony in considerable detail. Is that communicated to the 
Customs and Border Patrol?
    Ms. Shaw. The recommendation for immediate action?
    Mr. Cicilline. Yes.
    Ms. Shaw. Yes. As part of the first management alert that 
was an official recommendation.
    Mr. Cicilline. Okay. So, Chief Hastings, have you read the 
management alerts that have been provided by the Office of 
Inspector General?
    Mr. Hastings. I have, sir, both.
    Mr. Cicilline. Have you begun to develop a response to it?
    Mr. Hastings. Sir, we have been working, prior to the 
reports coming out, and like I said, we have been saying for 
eight months we are over capacity.
    Mr. Cicilline. In particular, there is an acknowledgement 
that there is not a strategic, coordinated approach to service, 
safety, security, and care for those in custody. Are you now 
developing a strategic, coordinated approach to address these 
issues?
    Mr. Hastings. We are constantly working on the capacity 
issues. As I testified in my opening, we had six off-sited 
facilities that we had actually paid for to begin construction 
prior to even getting the funding for the supplemental.
    Mr. Cicilline. So, Chief Hastings, you made reference, in 
your testimony, to the implementation of a zero tolerance 
policy, which occurred on April 6, 2018. Is that correct?
    Mr. Hastings. Yes, sir.
    Mr. Cicilline. And that was a new policy being put into 
place. Correct?
    Mr. Hastings. That was a policy to increase our total 
overall prosecutions.
    Mr. Cicilline. Okay. And that was a new policy.
    Mr. Hastings. It was.
    Mr. Cicilline. So there wasn't a zero tolerance policy 
before April 6th of 2018, was there?
    Mr. Hastings. We had ran similar pilots in the field in 
other locations, but to that magnitude, no.
    Mr. Cicilline. And it was not a policy in place throughout 
the entire department. Correct?
    Mr. Hastings. No, not before that, to my knowledge.
    Mr. Cicilline. Okay. And that policy required you to 
prosecute parents so that every child that was with a parent 
then became an unaccompanied child. Correct?
    Mr. Hastings. Well, there was a list, and you have seen the 
list, but it started out with single adult criminals, went to 
single adults who were smuggling, and then went to non-
contiguous family units.
    Mr. Cicilline. Okay, Chief, I want to talk specifically--I 
know a number of my colleagues have mentioned family 
separations at the southern border are ongoing. I want to 
discuss one very specific case with you, Chief. Due to the 
Trump administration's Migrant Protection Protocols, MPP, or 
Remain in Mexico policy, where migrants are required to wait in 
Mexico until they can have their asylum hearing, one Honduran 
family was told that they would be separated. One parent would 
stay in the U.S. with their children and one would be sent to 
Mexico.
    According to the parents, a Border Patrol agent then asked 
the couple's three-year-old daughter, Sophie, to choose which 
parent she wanted to stay with, ultimately deciding who would 
stay in the U.S. and who would go to Mexico. Asking a three-
year-old child to choose between their parents, not knowing if 
they will ever see one again, is unconscionable and traumatic 
to a child.
    The separation occurred despite a medical recommendation 
from a doctor who advised that they be removed from MPP and 
stay together due to Sophie's severe heart condition.
    So, Chief Hastings, my first question is did this Border 
Patrol agent correctly implement MPP, according to our 
policies?
    Mr. Hastings. So I believe that is the same case we were 
discussing earlier, where they were separated only in our 
facility and they were retired as an entire family back to 
Mexico.
    Mr. Cicilline. My question, Chief, is even though that 
ultimately was the result, because of some court intervention, 
is it an appropriate policy to ask a three-year-old child to 
decide which parent will stay in the U.S. and which will not?
    Mr. Hastings. Sir, that was based upon capacity and 
availability within our own short-term holding detention cell.
    Mr. Cicilline. Chief, my question is not about your 
capacity. My question is the propriety and the damage you are 
doing to a three-year-old child, to ask them to make that 
decision, to pick a parent. Is that consistent with the MPP 
protocols?
    Mr. Hastings. Sir, the family was not separated. They were 
returned together.
    Mr. Cicilline. You deny that the child was asked to pick a 
parent to stay with, and which one would be deported?
    Mr. Hastings. While in our custody, there was no--to my 
knowledge, no deportation.
    Mr. Cicilline. And the medical and psychological conditions 
of minors considered before placing a family's case into the 
MPP program?
    Mr. Hastings. They are.
    Mr. Cicilline. I yield back, Mr. Chairman.
    Chairman Nadler. The gentleman yields back.
    The gentleman from Florida.
    Mr. Gaetz. Thank you, Mr. Chairman.
    We have smugglers and traffickers that take young children 
out of the Northern Triangle, subject them to a treacherous 
journey where they are abused--physically, mentally, 
emotionally, sexually--and then they come to our country, and 
what I have seen in Yuma Sector, is that we have Border Patrol 
agents who are doing everything they can to respond to a crisis 
that they did not create and that our laws continue to 
exacerbate.
    We have a crisis at our border because our laws themselves 
seem to be a humanitarian crisis. Instead of requiring migrants 
to show up with legal paperwork, we simply require them to show 
up with a trafficked child and present that child in lieu of 
legal basis to be in our country. And it is devastating to me 
that while we continue to have thousands of people that today 
will show up at our border under these conditions, that we are 
not taking action to reform our asylum laws, and they are sick 
laws.
    The crisis on our border was articulated by Secretary 
McAleenan at the beginning of the year. He begged for the 
resources to be able to help save lives. He begged for changes 
in our asylum laws so that we would not be encouraging people 
to cross our border illegally.
    Commander White, had the Congress responded timely to 
Secretary McAleenan's request for supplemental funding rather 
than only passing it quite recently how many migrants would 
that have impacted and what would have been the effect of more 
prompt response to DHS' request?
    Mr. White. I don't know any way I could answer that 
question. Is your question about what would be the effect had 
there not been a period of near deficiency in the UAC program?
    Mr. Gaetz. Yeah. The question is like, so McAleenan asks 
for the money in February. We don't provide the money until 
very recently, and so that delta between the request and the 
provision of resources created some consternation for the 
health, safety, and welfare of people who are in our country 
illegally, and I am trying to understand that dynamic.
    Mr. White. I am not aware of any impact that would have on 
the Ms. L. class, but to the extent that it might have an 
impact on the UAC program I will defer to that program's 
director, Mr. Hayes.
    Mr. Hayes. So, Congressman, yes, the lack of funding and 
the deficiency status that we entered into for short season at 
HHS did create a level of uncertainty in the program, and in 
accordance with the Anti-Deficiency Act there were some 
services that were affected as we carried out the mission to 
care for the children as they worked through the process. Now 
how that would have any impact actually at the border----
    Mr. Gaetz. No, no, I don't mean that. I mean for the 
conditions of people that the majority is focused on.
    Mr. Hayes. And I would defer part of that to----
    Mr. Gaetz. I have got an answer to the question. Chief 
Hastings, my colleagues from Georgia I don't think gave you a 
full opportunity to answer the question about your basis for 
the belief that this smuggling industry was a billion-dollar 
industry. You referenced intelligence reports and intelligence 
collected off of those that were being trafficked, and he said, 
``Okay, well, you have just heard some things,'' and went on.
    Would you like to illuminate more thoroughly on how we know 
of the gravity and of the stakes of this trafficking crisis?
    Mr. Hastings. Yes. So, again, the smugglers are the ones 
who are profiting from all this, the TCOs. But, I mean, I give 
five specific examples. This year we have had 200 large groups 
of over 100 hit our borders. We have never seen anything like 
that. Last year it was 13. The year before, 2. Specifically, in 
an example, in at least five of those large groups we had 
technology that provided us with information that large drug 
loads, usually cocaine or marijuana, were being trafficked at 
the same time. In other words, these large groups are often 
used as a diversion for drug trafficking organizations to know 
that when you are sending a group that large down through the 
border you are effectively shutting down our operation so we 
can deal with that amount of people, and in the meantime you 
are running a large narcotic load through right next door, two 
to three miles away.
    Mr. Gaetz. And that is--your agents refer to that as gap 
time--is that correct?--where there are gaps in where they can 
cover the border because they are having to process large 
volumes of migrants?
    Mr. Hastings. That is correct, where we either have to 
transport, detain, or, in this case, it effectively shuts down, 
just due to sheer transportation and volume of getting those 
individuals medically assessed and back to our station in a 
timely manner to process.
    Mr. Gaetz. Thank you. Well, I certainly hope we can get 
some of that bipartisan work before the committee.
    Mr. Chairman, may I be recognized for a unanimous consent 
request?
    Chairman Nadler. Without objection.
    Mr. Gaetz. Mr. Chairman, I seek unanimous consent to enter 
into the record a McClatchy article, January 15, 2016, entitled 
``Obama Administration Fights to Keep Family Detention.''
    Chairman Nadler. Without objection.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler. The gentleman's time has expired.
    The gentleman from Maryland.
    Mr. Raskin. Thank you, Mr. Chairman. When the zero 
tolerance policy ended after a court decision, I understand 
that hundreds of children continued to be separated from their 
parents at the border, and unless someone corrects me I believe 
they are still taking place to this day, on the criteria of 
either criminal history or best interest of the child. Is my 
understanding basically right, Chief Hastings?
    Mr. Hastings. This is correct. Guidance was put out 
immediately that basically identified when child separation 
would occur, to the agents.
    Mr. Raskin. Can you tell us generally what the standard is 
there?
    Mr. Hastings. I can. It is a referral for a parent/legal 
guardian for prosecution of a felony. Parent/legal guardian 
presents a danger to the child. Parent/legal guardian has a 
criminal conviction for violent misdemeanors or felonies. And 
then the parent or legal guardian has a communicable disease.
    Mr. Raskin. So I have gotten word of some disturbing 
stories of families being torn apart for reasons which appear 
not to fall within those categories, but I understand there is 
some generality and abstractness to the way that that memo is 
written. You are quoting from the June 27, 2018, interim 
guidance.
    For example, if a child was separated from a parent because 
the parent had had a marijuana arrest or conviction, would you 
see that as outside of this memo or would you see that as an 
acceptable interpretation of this memo?
    Mr. Hastings. It would be a case-by-case basis and I would 
want to see all of the facts of everything that was presented.
    Mr. Raskin. But assuming that there were no other salient 
facts offered, would it be enough that there was a marijuana 
conviction in someone's record?
    Mr. Hastings. Again, it would be case-by-case. I would need 
to the totality of the circumstances to make that decision.
    Mr. Raskin. Well, I understand that it is case-by-case. 
That is how the justice system works. But we take case-by-case 
and then we apply rules. And what I am looking for is what is 
the rule that is to be applied on a case-by-case basis? Would a 
marijuana arrest or conviction fall within--and it doesn't look 
like it is prosecution for a felony, and it doesn't look like 
it is a criminal conviction for a violent misdemeanor or 
felony. Wouldn't that fall outside?
    Mr. Hastings. Again, I would want to see the totality of 
the circumstances to see if there were other convictions, other 
things out there.
    Mr. Raskin. All right. So if you--you know, you are in 
charge and you have got enormous experience. If you cannot tell 
us, how is somebody, a line person in the Border Patrol, 
supposed to make that determination? I mean, can one make a 
decision one way about a marijuana arrest and then another 
officer make another decision about a marijuana arrest?
    Mr. Hastings. If the agent has a question they will refer 
that through our legal counsel and work with our legal counsel 
to make sure they are making the right decision in accordance 
with this guidance that has been put out.
    Mr. Raskin. The National Immigration Justice Center 
represented a woman, who I will call Maria, who was separated 
from her three-year-old for more than three months because 
Customs and Border Patrol thought that she had a criminal 
history in her home country. She was not reunited with her son 
until U.S. lawyers were able to obtain proof from El Salvador 
that she had no such record.
    What steps are taken to prevent mistakes and errors, 
because the impact is obviously devastating on a family. None 
of us, I am sure, can contemplate having a missing or lost 
child for more than 15 minutes, much less for three months.
    Mr. Hastings. Sir, I am not aware of this specific case but 
I would be glad to look at it and get back to you.
    Mr. Raskin. But what is being done to prevent mistakes from 
being the basis for decisions?
    Mr. Hastings. So as we said earlier, as I said earlier, a 
separation is not taken lightly. We run every check, discuss--
make sure, to the best of our ability that we can by running 
all criminal records checks, working with other entities, 
sometimes even foreign law enforcement officers, to make sure 
that everything that we are told is true and correct, and to 
the best of our due diligence make sure that we are doing 
things properly.
    Mr. Raskin. If a mother or father has HIV-positive status, 
is that alone enough to justify separation from their child?
    Mr. Hastings. It is. It is a communicable disease, under 
the guidance.
    Mr. Raskin. Because we have reports of people being 
separated from their kids on that basis. Is that what we mean 
by communicable disease? It is not communicable through 
ordinary contact.
    Mr. Hastings. This is the guidance that we follow.
    Mr. Raskin. And that came from our legal counsel or that 
came from the Chief of Border Patrol, or where did that come 
from?
    Mr. Hastings. I am not sure if that came from legal 
counsel. We just see that--I believe that is defined as a 
communicable disease.
    Mr. Raskin. Do you have a list of the communicable 
diseases?
    Mr. Hastings. Not with me. No, sir.
    Mr. Raskin. I mean, the flu is communicable. Would we 
separate parents from kids if a mom or dad had the flu?
    Mr. Hastings. We are not, sir.\2\
---------------------------------------------------------------------------
    \2\ Statement Attributable to Brian Hastings, Chief, Law 
Enforcement Operations Directorate, U.S. Border Patrol: ``As I noted 
multiple times when presented with hypothetical scenarios or specific 
allegations by members of the Committee, I would need to review the 
full facts and circumstances associated with a case before speaking 
definitively. To clarify my exchange with Rep. Raskin regarding 
potential reasons for separation due to communicable diseases, while 
HIV is not a communicable disease that would bar entry into the U.S., 
HIV does present additional considerations that may affect how migrants 
might move forward in processing. CBP would not separate families due 
to the communicable nature of HIV. Generally speaking, separations of 
this type are due to the potential requirement for hospitalization and 
whether it is in the best interest of the child to wait for the 
disposition of the their parent in HHS or CBP custody. Similarly, while 
a simple flu case would generally not be grounds for separation, 
complications requiring hospitalization may impact the best approach 
for maintaining custody of the child. For these reasons, Border Patrol 
makes all separation decisions on a case-by-case basis and these 
decisions are not taken lightly.''
---------------------------------------------------------------------------
    Mr. Raskin. Okay. I see my time is up. I yield back. 
Thanks.
    Chairman Nadler. The time of the gentleman has expired.
    The gentleman from North Dakota.
    Mr. Armstrong. Thank you, Mr. Chairman. I wish that we--and 
I agree with my colleague on what due process is in convictions 
and those types of things, and I do, but I also know that I 
have seen reports that up to 92 percent of the crimes in El 
Salvador don't go punished. And I am not going to ask you 
because you all work with those countries and we are doing a 
lot.
    But this is more than just checking a Clerk of Court record 
in some of these countries. We are going to vote today on TPS 
status for an entire country. We wouldn't be doing that if 
everything was wine and roses down there.
    So I wish that their due process was where it was and that 
it was as absolute as that, and you could say, ``Have you been 
charged?'' ``Have you been convicted of a crime?'' and that was 
the final inquiry. But I suspect it is a little more 
complicated than that, and you are dealing with people--and 
oftentimes the level of the crime you pay in some of these 
countries is how big of a bribe you paid to get out of it.
    So I think the real world is a little different than how we 
are interacting with that. So I think that is an important 
point.
    But Mr. Edlow, we talk about family separation and we talk 
about all of these different things and asylum, but we have to 
start from the basis of that. We actually have a law, and the 
law is it is a Federal crime, under United States Code 1325, to 
illegally enter the United States. Correct?
    Mr. Edlow. That is correct.
    Mr. Armstrong. And this wasn't added to the Federal Code 
under President Trump.
    Mr. Edlow. No, sir. Congressman, the 1325(a) was added back 
in 1952.
    Mr. Armstrong. And this is unique for Federal crimes 
because it is actually a misdemeanor for a first offense, and 
we don't typically--the Federal Government isn't really in the 
business of like prosecuting Federal misdemeanors in other 
areas of the law, is it?
    Mr. Edlow. It would depend, I guess, on the crime that we 
are referring to. But I would note that with every 
administration the Department of Justice has an attorney 
general, and that attorney general sets priorities for 
prosecution.
    Mr. Armstrong. But--and you would agree one of the 
reasons--I mean, we are not locking a bunch of these people up 
if they get a misdemeanor conviction. I mean, we are better 
stewards of the taxpayers' dollars that that. We are deporting 
them and sending them back to where they go. And I am not 
talking in these asylum cases, I am just saying--whatever, they 
get convicted of a misdemeanor and then we work through ICE and 
get a deportation order.
    Mr. Edlow. That would be--after the prosecution phase they 
would be returned to the Department of Homeland Security for 
them to explore whatever relief they may have available, or 
protection, and ultimately to get that relief or protection or 
to be removed.
    Mr. Armstrong. I mean, one of the reasons for this is to 
deter illegal entry. Correct?
    Mr. Edlow. Well, Congressman, presumably when Congress 
enacted 8 USC 1325, one of the reasons was to encourage 
individuals to appear at the port of entry and to try to get 
admission at the port of entry as opposed to trekking through 
the desert, through the river, whatever else, to make a very 
dangerous journey into the United States.
    Mr. Armstrong. And there is another reason, too, because 
illegal re-entry is no longer a misdemeanor. Illegal re-entry 
of a previously deported alien is a felony, right?
    Mr. Edlow. Yes.
    Mr. Armstrong. So in order to have--I mean, if we have bad 
actors who continue to go back and forth, dealing with that, we 
need a deportation order. I mean, that is actually an element 
of the crime the second time.
    Mr. Edlow. For illegal re-entry? Yes, an element would be 
the deportation order.
    Mr. Armstrong. And so it is not only to defer the first 
track but is also to make sure that people understand that if 
you keep doing this, and continue to do it more than once, the 
consequences get more significant.
    Mr. Edlow. That is correct, Congressman, but I would also 
say that in terms of one of the most important parts of 
prosecuting 1325(a) is to really get at what Mr. Biggs was 
talking about earlier, with regard to the smugglers, the abuse 
of children that we are seeing across the border at this point. 
And I would note that in the last year there has been a marked 
increase in prosecutions for both violent crimes and crimes 
against children prosecuted by the Federal Government along the 
border.
    Mr. Armstrong. And at the same time, in the last year, 
parents traveling with children are not being referred for 
prosecution right now because of an Executive Order issued by 
President Trump?
    Mr. Edlow. Congressman, I would defer to the Department of 
Homeland Security as to who is being referred to the Department 
of Justice, but I believe that the injunction under Ms. L. and 
the Executive Order of June 20th is in effect and is being 
complied with.
    That said, Congressman, I would also note briefly that, as 
it has been stated, the policy is no longer in effect. The zero 
tolerance prosecution policy is still an active memo.\3\
---------------------------------------------------------------------------
    \3\ Mr. Edlow requested this paragraph be changed to, ``That said, 
Congressman, I would also note briefly that, as it has been stated, the 
zero tolerance prosecution policy is still an active memo.''
---------------------------------------------------------------------------
    Mr. Armstrong. I guess that is my question, is what is--it 
seems--and this goes to what Mr. Gaetz is seeing--it seems we 
have created now, through attempts at compassion, an absolute 
incentive to bring children across the border because it 
essentially a get-out-jail-free card.
    Mr. Edlow. Again, I would defer to the Department of 
Homeland Security as to how they are referring cases, who they 
are deciding to refer.
    Chairman Nadler. The gentleman's time has expired.
    The gentlelady from Washington.
    Ms. Jayapal. Thank you, Mr. Chairman. I wanted to start 
by--since there have been so many calls from the other side 
that there hasn't been anything done, I wanted to quickly run 
through a timeline of what happened with the family separation 
policy.
    On March 6, 2017, former DHS Secretary John Kelly announced 
that DHS was considering separating children from their parents 
to deter migration. A few weeks later, because of massive 
outcry across the country, on March 29th, Secretary Kelly 
announced that, no, DHS was not going to pursue family 
separation, and yet just a few months later we learned that DHS 
secretly piloted family separation in the El Paso Sector from 
July through November of 2017.
    In February of 2018, responding to reports that family 
separation was occurring in the El Paso Sector, Ms. Lofgren and 
I sent a letter raising concerns with reports of family 
separation. That was circulated to my Republican colleagues. 
Not a single one signed on.
    In April of 2018, the New York Times reported that DHS took 
more than 700 children from their parents between October 2017 
through April of 2018. And then on May 4, 2018, then Attorney 
General Jeff Sessions announced Trump's Zero Humanity Family 
Separation Policy, and he named the principal purpose of family 
separation as deterrents and to criminally prosecute people.
    I would remind my colleagues on the other side of the 
aisle, as they express their outrage that nothing has happened, 
that they actually controlled both chambers of Congress, the 
House and the Senate, and the White House, during this entire 
time that family separation was happening. The entire two-year 
period that they had control of the House, the Senate, and the 
White House, this was actually happening at the behest of the 
Trump administration.
    They did not join us in oversight or having a single 
signing onto a single letter to address the humanitarian 
crisis, and ultimately, it was actually a court order that 
was--that ensured that children were reunited with their 
parents, on June 26th of 2018, that court order happened. But 
at that point nearly 3,000 children had been identified as 
separated, just during that time of the case.
    Now today we know that family separations are still 
happening. As Mr. Edlow said, zero tolerance policy is still an 
active memo. I believe that is what you said.
    So let me go to Chief Hastings. You mentioned earlier in 
your testimony, and I don't have the exact words so I wanted to 
make sure I get this right, you said something like ``when we 
started we were tracking A numbers.'' What did you mean by 
``when we started''? What point of time were you referring to?
    Mr. Hastings. So during zero tolerance we were basically--
we had a tear sheet that went with the A number, to list the 
family member. So when reunification became--when reunification 
would take place that the child could be matched with the 
family easier.
    Ms. Jayapal. Okay. And are you aware that on September 27th 
of 2018, the DHS Office of Inspector General found that DHS 
was, quote, ``not fully prepared to implement zero tolerance or 
to deal with after effects''?
    Mr. Hastings. So for Border Patrol, I mean, we are the 
arresters and set-up for prosecution, so we were prepared.
    Ms. Jayapal. Okay. And so, you know, the report also said 
that DHS struggled to identify, track, and reunite families, 
and provided inconsistent information to migrants, thereby 
creating communications issues with their children once they 
were separated. So somewhere between Border Patrol, ORR, ICE, 
the various agencies that were involved, we lost the data.
    Children were separated from their families, and I would 
like to go to Commander White. The last time you were here--and 
thank you for your courage and your testimony--you testified 
that you warned three Trump appointees about the potential 
health risks of family separation more than a year before the 
policy became official. Is that correct?
    Mr. White. Yes, ma'am. I gave my first warning to my 
superiors on the 15 of February, 2017, after attending the 
first meeting that we had on that proposal.
    Ms. Jayapal. February of 2017. Thank you. And you also 
testified that the best available evidence shows that 
separating children from their parents--and this is your 
quote--``entails very significant and potentially life-long 
risks of psychological and physical harm.'' Is that correct?
    Mr. White. That is an established scientific fact.
    Ms. Jayapal. Thank you. And Commander White, would you 
agree that if a child welfare official observed children being 
forced to wear clothing stained with vomit for weeks, deprived 
of basic essentials like adequate food, water, clothing, 
medical care, and dental hygiene, and leaving infants and 
toddlers in the care of other young children, wouldn't child 
welfare officials remove children from that household?
    Mr. White. Although I don't know if that occurred, there is 
no doubt that any competent child welfare professional would 
take such a step.
    Ms. Jayapal. And yet here we are, the U.S. Government, 
detaining children in those conditions. It is absolutely 
abhorrent, and I am just--I continue to be stunned----
    Ms. Lofgren [presiding]. The gentlelady's time has expired.
    Ms. Jayapal [continuing]. Madam Chair, and I yield back.
    Ms. Lofgren. The gentleman from Virginia is recognized.
    Mr. Cline. Thank you, Madam Chair, and I want to echo the 
concerns of everyone here who has told horrendous stories of 
children being separated from their parents, of children in 
conditions that are unacceptable, and I think that we all 
share--put politics aside--we all share these concerns and want 
to move to address them.
    So I am glad to hear the timeline that the gentlelady 
presented, letters of concern as early as the last Congress 
that were going on. I can't help but also note that additional 
legislation as pushed during that same time that would have 
fixed Flores, offered by my predecessor, Congressman Chairman 
Goodlatte. Both of his bills would have included a fix to the 
Flores problem that we are encountering.
    The Administration--it is my understanding while they have 
continued a zero tolerance policy, has put forward a memo 
opposing family separation. Is that my understanding?
    Mr. Edlow. Congressman, there was an Executive Order that 
opposed \4\ family separation.
---------------------------------------------------------------------------
    \4\ Mr. Edlow requested this be changed to ``restricted.''
---------------------------------------------------------------------------
    Mr. Cline. Executive Order.
    Mr. Edlow. And that Executive Order is being followed as is 
the injunction in the Ms. L. litigation.
    Mr. Cline. Thank you. I think we all want to see 
legislation pushed to address it, and we have seen some 
legislation move, one piece of legislation out of this 
committee, sponsored by Congressman Ruiz, that dealt with 
conditions at the border. There is another bill dealing with 
short-term detention standards.
    You know, when I was in the State legislature for 16 years, 
we developed expertise in our specific areas. I was on the 
Courts of Justice Committee. I was on the Finance Committee, 
which dealt with tax policy, and when there was a tax question, 
when there was a bill to effect tax policy, that legislation 
went through the Finance Committee.
    And so I am concerned that not only is there--I am pleased, 
first of all, to hear that there are legislative initiatives 
out there to address this issue, but I am concerned that these 
bills are not only being introduced--now I am glad to hear they 
are being introduced by members of our committee. The 
gentlelady from Texas, Ms. Escobar, introduced a bill dealing 
with immigration policy, but it was not sent here. The 
committee of jurisdiction has not gotten to review that bill. 
And we have people on both sides with significant expertise on 
those issues, who want to weigh in, who want to help. We have 
staff with decades of experience who should be able to assist 
as we seek to make the best policies possible, the best pieces 
of legislation possible, to come out of this committee, to come 
out of this Congress. The only way you are going to get solid, 
A-plus pieces of legislation is to put them through the 
committees of jurisdiction.
    And so for Congresswoman Escobar's bill to be referred to a 
different committee I think is going to result in a piece of 
legislation that is not as good as it could have been, and that 
is just to put it mildly.
    Let me ask Mr. Hayes, Director Hayes, we have heard a lot 
of discussion about the homestead influx shelter. Did that 
shelter open during the Trump administration or the Obama 
administration?
    Mr. Hayes. Sir, the homestead site was first chosen and the 
initial contract and operator chosen in December of 2015, in 
the last administration.
    Mr. Cline. Was the contractor who operated the homestead 
influx shelter selected during the Trump administration or the 
Obama administration?
    Mr. Hayes. It was chosen in December of 2015, in the last 
administration, sir.
    Mr. Cline. Are the services offered to the children under 
this administration different than the services offered in the 
last administration?
    Mr. Hayes. No, sir.
    Mr. Cline. And what has changed since it opened in 2016, 
until now?
    Mr. Hayes. Just the census has gone up and down, but 
basically, you know, the shelter remains very similar to the 
way it was.
    Mr. Cline. Thank you. I yield back.
    Ms. Lofgren. The gentleman yields back.
    Just a note. I appreciate his comments on jurisdiction. I 
remember many years ago when Henry Hyde was chairing the 
committee and we had an issue that related to an overlap 
between the Energy and Commerce Committee, and he said, ``You 
know, Democrats are adversaries, but the Energy and Commerce 
Committee is our enemy.'' So there is that jurisdiction.
    I will note that the Homeland Security Committee has 
jurisdiction over personnel in the Department of Homeland 
Security, but obviously all the policy issues are our 
jurisdiction, and I think the gentleman has identified a 
serious issue, and I wanted to acknowledge that.
    Now I would recognize the gentlelady from Florida, Mrs. 
Demings, for five minutes.
    Mrs. Demings. Thank you so much, Madam Chair, and thank you 
to all of our witnesses for being here. As I listen to my 
colleague from Washington State describe the conditions of 
children and families, I initially thought that I was listening 
to a story about families in a distant land.
    I know many of my colleagues on the other side of the aisle 
have tried to make this issue a partisan issue, but it is not. 
This issue is really about is American who we say we are? Do we 
treat people with dignity and respect, regardless of where they 
come from, and do we treat them fairly? That is what this issue 
is about. It is not a partisan issue. And I would say that we 
better get back on track, because the conditions and situations 
at the border is a loser. It is a loser for all of us. It is a 
loser for this nation, and we are better than what we are doing 
at the border.
    Chief Hastings, I know you have a tough job, but let me 
just say this. As a law enforcement agency, CBP plays a 
critical role in our national security mission. But I also know 
what it is like to have been given an unjust, improper, and 
impossible mission or order. And as opposed to CBP being able 
to stay in their land and keep our nation safe, you are having 
to deal with overcrowding in facilities, deal with children, 
deal with families, long-term stays and detentions. That is not 
your mission.
    And so I just want to know, but since you have been given 
that charge, do your officers or agents receive any specific 
training in dealing with children or the treatment of children 
in detention?
    Mr. Hastings. Yes. We receive--yearly, we receive TDPRA 
training and Flores settlement training as well. But 
specifically as far as child care training, no.
    Mrs. Demings. No medical training to deal with----
    Mr. Hastings. We do have--we have got over 1,200 EMTs that 
are trained. I think we are the largest only behind the 
Department of Defense. So we do receive that as well as basic 
EMT for all of our officers.
    Mrs. Demings. That is annual training, you said?
    Mr. Hastings. It is. Yes, ma'am.
    Mrs. Demings. Have all of your officers or agents received 
the training to date?
    Mr. Hastings. I would have to get back to you on that. I 
don't know what the status is on that.
    Mrs. Demings. Acting Secretary proclaimed that such 
training is a hard thing to comprehensively provide for law 
enforcement. Do you agree with that statement, and if so, why?
    Mr. Hastings. In the current crisis any training is hard to 
provide right now, because, as I said earlier, we have got 40 
to 60 percent of our agents just dealing with the crisis and 
border security mission is suffering. We have cancelled leave. 
We have cancelled a lot of task forces, pulled agents back from 
those, and those agents are specifically--it is all hands on 
deck. We have even cancelled some training.
    Mrs. Demings. Acting Secretary also mentioned, in his 
testimony, that the department is hoping to have contracted 
experts in CBP facilities that can identify mental health 
trauma in children. Have you completed that?
    Mr. Hastings. Are you referring to the contract of medical 
assessment teams that we have in our facilities?
    Mrs. Demings. That is correct, but specifically dealing 
with mental health issues that children may suffer who are in 
your detention facilities.
    Mr. Hastings. So what I can say is we started with about 20 
medical health professionals through a contract company in all 
of our southwest border facilities. We have over 200 today. We 
are expanding those medical contract as quickly as possible, to 
provide that additional assessment. Again, it is short-term, 
not long-term, so if a problem is identified we will seek to 
get the proper help as quickly as possible, not in the 
facility.
    Mrs. Demings. Ms. Shaw, during your visits to the various 
facilities, do you agree with that assessment? Is that what you 
saw, contracted professionals in place dealing with some of the 
challenges in the facilities?
    Ms. Shaw. So I can't share specifics as of yet. We are 
working on our capping report, which will address what we saw. 
We do observe volume of medical staff on site. I can tell you 
that we did see staff on our visits, some from Coast Guard, 
some from other agencies, to provide help under the 
circumstances.
    Mrs. Demings. And finally, Chief Hastings, if a medical 
emergency does occur, could you just kind of walk us through? I 
know there was some discussion in the past that there were not 
even medically trained personnel even close to a lot of the 
crises or medical crises that you interacted with in the field. 
Could you kind of walk us through how things have gotten 
better?
    Mr. Hastings. Sure. As I said earlier, we now have over 200 
medical nurse practitioners and physician assistants in our 
facilities through the contract. If they identify an issue, or 
if an individual in our detention says ``I am sick'' or ``I 
need to see a doctor,'' they are taken to the hospital or the 
nearest medical facility to seek additional care. I mean, up to 
80 per day right now, so far over 20,000 this fiscal year, have 
been referred for secondary medical care.
    Ms. Lofgren. The gentlelady's time----
    Mrs. Demings. Thank you.
    Ms. Lofgren [continuing]. Has expired.
    Mrs. Demings. Thank you, Madam Chair.
    Ms. Lofgren. The gentlelady from Pennsylvania is recognized 
for five minutes.
    Ms. Scanlon. Thank you very much. Two to three weeks ago, 
multiple news outlets reported that DHS had received complaints 
that a 15-year-old Honduran girl, detained in Customs and 
Border Patrol's short-term custody in Yuma, had been sexually 
assaulted by an officer. During what was supposed to be a 
routine pat-down, the officer reportedly put his hands inside 
her bra, pulled down her underwear, and groped her. While 
assaulting her, the CBP officer said to have spoken with other 
CBP officers and laughed. And this has all happened in front of 
other detained migrants and officers.
    I understand that the incident is still being investigated, 
but the reporting we have seen thus far is horrifying, and this 
is not the first time we have heard allegations from migrants 
hurt in other government facilities. In fact, in 2016, the 
Berks County Family Detention Facility in Pennsylvania had such 
allegations, and that is the facility that Representative Dean 
and I visited just last week.
    All of these incident raise serious questions about 
institutional response to bad actors and what protections 
should be in place to protect an extremely vulnerable 
population--minors, people who may have language barriers, and 
people who are in custody.
    Chief Hastings, has the agent accused in the Yuma case been 
identified?
    Mr. Hastings. Ma'am, to my knowledge, I don't personally 
even know if it is a Border Patrol agent or if it was someone 
from ICE that was transporting the individual. I know that the 
investigation is currently under--I believe the Office of the 
Inspector General's investigating that case now. I first heard 
of the case, by the way, when it went out in the media. That is 
the first time I had heard of the case.
    Ms. Scanlon. Okay. So Customs and Border Patrol is not 
doing any independent investigation. It has just been referred 
to the Office of Inspector General?
    Mr. Hastings. To my knowledge, I believe the Office of 
Inspector General has that case.
    Ms. Scanlon. So Customs and Border Patrol is not doing 
anything separately?
    Mr. Hastings. Not to my knowledge, ma'am.
    Ms. Scanlon. But officers--Customs and Border Patrol 
officers in Yuma are under the jurisdictions of CBP. Correct?
    Mr. Hastings. CBP, OPR, that is our internal mechanism that 
investigates Border Patrol officers, but, I mean, I believe 
right of refusal, I believe OIG gets the first crack at the 
case.
    Ms. Scanlon. Okay. Has CBP taken any efforts to ensure that 
such incidents won't happen in the future, in any sector?
    Mr. Hastings. Absolutely. As I said, we just learned about 
this, but, I mean, we have posters and things that basically 
say open to any complaints, provide the numbers for any 
complaints that any detainees in our facilities have to call. 
We take all of these allegations seriously. We will seek to--
you know, if the allegations are found to be true, then we will 
take immediate action against those employees, if they are 
indeed true, if those allegations are true.
    Ms. Scanlon. Is there any training with respect to who 
should be performing pat-downs?
    Mr. Hastings. There is. There is training and policies. 
Generally it is preferred to be a member of the same sex that 
does those pat-downs. That is not always available, but 
generally that is the guidance that is put out to the field.
    Ms. Scanlon. And that includes with respect to children?
    Mr. Hastings. Children as well. It is same sex, generally. 
It is obviously not as--yes, it is same sex as often as we can. 
There are some remote locations in the field where we have to 
do quick cursory searches to make sure that the individuals 
don't have weapons, and if there isn't anyone available and 
then the officer, for officer's safety, needs to do that 
search, will perform that search and do so, as professionally 
as possible.
    Ms. Scanlon. Okay. But all the reporting said that this 
incident happened at the holding facilities in Yuma, so that 
would not be out in the field.
    Mr. Hastings. That is correct. There are times that an 
opposite-sex member or a same-sex member may not be available, 
and our policy does allow for cursory searches in those cases.
    Ms. Scanlon. Ms. Shaw, it sounds like the ball was passed 
to you, so I understand your office has announced an 
investigation here. Are there ongoing efforts to plan a wider 
investigation into allegations of sexual assault in CBP 
facilities?
    Ms. Shaw. We do have work underway looking at the law 
enforcement components within Department of Homeland Security 
and how they handle allegations of sexual harassment and sexual 
misconduct. That work is, I believe, out of field work and we 
are in the process of drafting, so we will have work product 
out on that in the near future.
    Ms. Lofgren. The gentlelady's time has expired, and we will 
turn now to the gentlelady from Texas, Ms. Garcia.
    Ms. Garcia. Thank you, Madam Chair. Before I begin my 
questions I wanted to thank Representative Cline for 
acknowledging that we, in fact, have been drafting bills to try 
to address a lot of these issues. I really did take exception 
with Ranking Member Collins making a suggestion that all we are 
doing is having hearings but that there is no action, that we 
believe to file bills. And I believe she said something like, 
you know, ``Let's do our work. Let's file bills.''
    So, Madam Chair, I wanted to remind Representative Cline 
that Chairman Thompson also H.R. 3731. The bill he was 
referencing from Representative Escobar is 2203. And, of 
course, the DREAM Act, which we did get out of this committee 
and has passed the House, is H.R. 6, the DREAM Act.
    Additionally, the Congressional Hispanic Caucus has filed 
numerous bills--in fact, it is two pages worth of bills 
addressing many of the issues that have been raised today, 
everything ranging from Representative Gallegos' bill about 
site visits to detention centers, to one of mine--I have filed 
several--about stopping shacking and detaining of pregnant 
women. I mean, the list goes on.
    So any representation that all we are doing is having 
hearings and this is all for--I guess for fun--I am not quite 
sure what message she was trying to get across, but it is just 
simply not true. And I just want to make sure that the folks 
watching and listening know that these issues are serious.
    And, Commander, I recall when you were here in February, 
that you said, as you mentioned to Representative Jayapal, that 
you took objection and shared your concerns to the Acting 
Director then, Mr. Lloyd, was it?
    Mr. White. Yes. Among those two I raised those concerns.
    Ms. Garcia. My note just says that you raised concerns. And 
then later during the hearing, because I do take some notes, 
you actually said that you just--you are against family 
separation, as a child welfare professional.
    Mr. White. Every career member of the ORR team was opposed 
to the idea of family separation.
    Ms. Garcia. So you were opposed to it then. You are still 
opposed to it?
    Mr. White. I am.
    Ms. Garcia. Right. So are you concerned about the reports 
that Ms. Shaw has detailed, about the conditions that her team 
saw firsthand, as many of us have seen as we have visited 
centers?
    Mr. White. My focus remains on ORR's and HHS's child 
welfare mission. Border stations are a matter that my 
colleagues from Border Patrol could speak to.
    Ms. Garcia. But as a child care professional, are you 
concerned about some of the conditions that some of the 
children are being placed in prior to coming to ORR?
    Mr. White. It is because Border Patrol facilities are for 
short-term holding that it is so important that all children 
move in the 72-hour time frame into ORR. ORR shelters are 
appropriate settings for children.
    Ms. Garcia. Well, I was trying to get you, as a child care 
professional, give me an opinion on the holding facilities, but 
I will move on.
    You know, former First Lady Laura Bush actually said, in an 
op-ed piece, in the Washington Post back in June of 2018, when 
this first started, that they were eerily reminiscent of 
internment camps. On the other side we had Laura Ingraham say 
that they were essentially summer camps. And recently a group 
of evangelical ministers who visited one of the sites in Texas 
said they were summer camps.
    Let me ask each of you just yes or no, quickly, if you have 
a child, or if you don't have children and you have a little 
niece or nephew, is this a summer camp that you would go and 
place your children in today?
    Mr. Edlow, I will start with you. Just yes or no. I don't 
need an explanation.
    Mr. Edlow. I can't give you a yes or no. I can say if the 
choice is between being in the desert or being in a secure 
facility, a protected facility----
    Ms. Garcia. Well, that is not the question. The question is 
would you place your child, niece, or nephew in those 
facilities today? If it is a summer camp----
    Mr. Edlow. What I am saying is if the choice is between 
being out in the----
    Ms. Garcia. That is not the question, sir. You are a 
lawyer. I am a lawyer. Answer the question.
    Mr. Edlow. I can't give a yes or no.
    Ms. Garcia. All right. Ms. Shaw.
    Ms. Shaw. These are detention facilities and I would not 
want my children in detention facilities.
    Ms. Garcia. Commander White.
    Mr. White. Short-term holding facilities are no appropriate 
places for children.
    Ms. Garcia. So the answer is no?
    Mr. White. Correct.
    Ms. Garcia. Director Hayes.
    Mr. Hayes. I too would not want my children in a detention 
facility, ma'am.
    Ms. Lofgren. The gentlelady's time has expired. The chief 
will be allowed to answer.
    Ms. Garcia. I just have one more.
    Mr. Hastings. Ma'am, I would just clarify, I think that was 
an FRC that the article was about. But regardless, we don't 
want children in our facilities longer than 72 hours.
    Ms. Garcia. But would you put your child there?
    Mr. Hastings. To me it is not a yes-or-no question. I 
wouldn't put my child in that circumstance of crossing 
illegally.
    Ms. Garcia. You just refuse to answer.
    Mr. Hastings. Ma'am, it is not a yes or no answer to me.
    Ms. Lofgren. The gentlelady's time has expired.
    The gentleman from Colorado is recognized, Mr. Neguse, for 
five minutes.
    Mr. Neguse. Thank you, Madam Chairwoman, for holding this 
important hearing and for your leadership in this regard and on 
so many issues, with respect to immigration policy here in our 
country.
    I just--I want to--I was not planning on this, but I have 
to follow up on the exchange from my colleague, the 
distinguished lady from Texas, because, Mr. Edlow, I am 
dumbfounded of how you could not answer that question with a 
simple no. Of course you do not want your children to be kept 
in this type of detention. And the fact that all of your 
colleagues are willing to say that and that you are unwilling 
to do so is confusing to me. But in any event we will proceed 
with my questions.
    Chief Hastings, my understanding is that you testified in 
front of the Senate a few months ago, I believe, and my 
understanding from your testimony is there was some exchange 
about supplies at these facilities, at the border facilities. 
You might recall that?
    Mr. Hastings. Yes, sir, that is correct.
    Mr. Neguse. And my sense from reviewing your testimony is 
that it was your position that the facilities have soap and 
toothbrushes and some of the other items that they are required 
to have, and you described that to the Senate. Do you recall 
that?
    Mr. Hastings. That is correct.
    Mr. Neguse. And I assume you would agree with me that those 
items--soap, toothbrushes, that those are central, that they 
are key to making sure that the facilities have safe and 
sanitary conditions, to the extent that the children, or 
adults, for that matter, are being detained. Is that safe to 
say?
    Mr. Hastings. It is.
    Mr. Neguse. All right. Thank you.
    Mr. Edlow, do you agree with Chief Hastings?
    Mr. Edlow. I am sorry. Can you repeat the question?
    Mr. Neguse. The question is do you agree with Chief 
Hastings? Chief Hastings just testified that he believes soap 
and toothbrushes are central to providing safe and sanitary 
conditions for those who are detained.
    Mr. Edlow. Congressman, I believe you are referring to 
the----
    Mr. Neguse. I am not referring to anything. I am asking you 
a question. I don't know if you--Chief Hastings just testified 
to a very simple question about whether soap is considered 
central to providing safe and sanitary conditions.
    Mr. Edlow. I understand that. Congressman, I believe we are 
getting very close to matters that are under active litigation.
    Mr. Neguse. Being very close----
    Mr. Edlow. I would not be able to comment on those matters.
    Mr. Neguse. I want to reclaim my time. Being very close to 
matters in litigation is not--I am not asking you about a 
pending litigation matter. I am asking you whether or not you 
agree with Chief Hastings that soap and toothbrushes are 
considered central to providing a safe and sanitary condition 
for those in the custody of CBP. It is a pretty simple yes or 
no, and the Chief is willing to say yes. I would hope you would 
be willing to say yes, as well.
    Mr. Edlow. Of course, toothbrushes and soap are important 
sanitary provisions\5\ to be issued to anyone in the custody of 
the government. That said, but----
---------------------------------------------------------------------------
    \5\ Mr. Edlow requested this be charged to ``items''.
---------------------------------------------------------------------------
    Mr. Neguse. I appreciate you saying that.
    Mr. Edlow [continuing]. In terms of what you are getting at 
with the comments made, I would just ask the entire committee 
to review the entire record of the arguments made before the 
Ninth Circuit, and as I said, I can't comment on anything 
further about the substance of the arguments made at the Ninth 
Circuit.
    Mr. Neguse. Well, look. I have reviewed those arguments. 
Obviously they are a matter of public record, so members of the 
public and citizens can review them for themselves. I believe 
that many in the country were shocked by the arguments that 
were made in front of the Ninth Circuit, in the case that you 
are describing, in the Flores v. Sessions case.
    But suffice it to say, I think you have perhaps clarified 
the record today in saying that those are items that are 
central to providing safe and sanitary conditions for those who 
are detained in the custody of CBP. And given that, I would 
hope that the Department of Justice, which is the department 
that you work for, would reconsider its position, the position 
that it has taken in that litigation, because I don't know how 
you can reconcile the statement you just made with the position 
that the department has taken in that case, and I suspect in 
many other cases.
    I would just close--I was not here for the exchange but I 
want to make sure we have a chance to cover this, because one 
of my colleagues had mentioned it. You stated earlier, Mr. 
Edlow, that the zero tolerance policy is still, quote ``an 
active memo.'' Is that correct?
    Mr. Edlow. That is correct.
    Mr. Neguse. Okay.
    Mr. Edlow. It has not been rescinded, I should say.
    Mr. Neguse. Okay. Courts, my understanding, put a stop to 
that policy last year, through a preliminary injunction, which 
cites both the Flores settlement agreement and Trafficking 
Victims' Protection Reauthorization Act. So why hasn't that 
policy been withdrawn? Why hasn't it been rescinded?
    Mr. Edlow. Congressman, I think we are conflating issues 
here. The zero tolerance policy that I am referring to under 
the April 6th memo, states that the U.S. Attorney's Offices 
along the southern border will accept for prosecution, to the 
extent practicable, and in consultation with DHS, all cases 
that are referred for prosecution, for improper entry. The 
decision about who to refer is a decision that is made from our 
law enforcement partners, so in this case from Border Patrol, 
from Customs and Border Protection.
    So the memo that we are referring to here is still in 
effect, that cases that are referred are being--and they are 
being accepted provided they are amenable to prosecution. That 
is completely, wholly, separate and apart from any--who is 
being referred.
    Now certainly the Federal Government is complying with the 
injunction, Ms. L., as you reference, as well as with the 
President's Executive Order of June 20th. My understanding, and 
I would defer to the Department of Homeland Security, but my 
understanding is that parents that are entering with children 
are not being referred under this memo, but the memo itself is 
still being--it is still being followed.
    Ms. Lofgren. The gentleman's time has expired.
    The gentlelady from Georgia is recognized for five minutes.
    Mrs. McBath. Thank you, Madam Chair, and thank you to each 
of you for coming here to testify before us. As a mother, I 
have to say it just truly breaks my heart to hear the stories 
that my colleagues and I continue to hear, and the idea that 
separations appear to be going on is just unconscionable.
    The American Academy of Pediatrics said, in a statement, 
that separating children from their parents contradicts that 
the Academy stands for as pediatricians. They noted that 
immigrant children seeking safe haven in the United States 
should never be placed in detention facilities. Studies of 
detained immigrants have shown that children and parents may 
suffer negative physical and emotional symptoms from detention, 
including anxiety, depression, and post-traumatic stress 
disorder. Conditions in United States detention facilities, 
which include forcing children to sleep on cement floors, open 
toilets, constant light exposure, insufficient food and water, 
no bathing facilities, and extremely cold temperatures are 
traumatizing for children. No child should ever have to endure 
these conditions.
    The American Medical Association sent you a letter urging 
the Trump administration to promptly end the practice of 
separating children from their families at the southern border, 
citing emotional and physical distress associated with this 
policy. The zero tolerance policy has and continues to fracture 
families at our border as punishment for seeking refuge in the 
United States.
    Chief Hastings, if you will answer my questions please, in 
just a yes or a no. Are you aware of the research on trauma 
caused by parental separation?
    Mr. Hastings. I have not read those reports. No, ma'am.
    Mrs. McBath. Are you aware of the effects of trauma on 
child development?
    Mr. Hastings. Again, I have not read those reports.
    Mrs. McBath. Are you aware of the comments by the American 
Academy of Pediatrics?
    Mr. Hastings. I have not read the reports, ma'am.
    Mrs. McBath. Did you read the letter from the American 
Medical Association calling for an end to family separation 
because of the emotional and physical stress it causes to 
parents and children?
    Mr. Hastings. I have not read the letter. I haven't seen 
it.
    Mrs. McBath. Did you make any changes in CBP policy at all? 
Apparently not, because you have not read the report. Correct?
    Mr. Hastings. I haven't read the reports but we have 
outlined how the policy was changed after the Executive Order 
was put out. I have provided that, when we separate children 
now, from here on out, our guidance.
    Mrs. McBath. Okay. Does this committee have that guidance?
    Mr. Hastings. They do. Yes, ma'am.
    Mrs. McBath. Okay. Thank you. So to your understanding, 
have any changes really been made to training of CBP agents and 
officers with this new guidance?
    Mr. Hastings. We have provided the specific guidance, which 
you have, as I said, and basically it is what we were doing 
prior to the zero tolerance initiative.
    Mrs. McBath. Did you implement a system that would like 
each child to the parent or family member that you tore them 
away from?
    Mr. Hastings. We document the familial relationship with 
tear sheet that is provided, as well as in the A file, or the 
file for the individual, yes.
    Mrs. McBath. And I am going to ask Inspector General Shaw--
my time is short--is DHS providing trauma-informed mental 
health services to children and parents who have been separated 
or those who are detained in locked facilities?
    Ms. Shaw. I am sorry. I don't have details on that at this 
point. It is an issue. Access to medical care is an issue that 
we are looking at as part of the broader review of our 
unannounced inspections. But we, within DHS OIG, don't have the 
subject matter expertise at this point to evaluate the quality 
of that care, but we are looking at access to care and will be 
able to put some reporting out, hopefully in the fall.
    Mrs. McBath. So when you do conclude your reporting you 
will make that available to this committee. Correct?
    Ms. Shaw. We will, and it will be published for the public, 
as well.
    Mrs. McBath. Okay. Thank you.
    I just have to say this in closing. We have absolutely got 
to end the physical and mental harm faced by our children at 
the border. These policies are harming innocent children and it 
simply has to stop. And I yield back the balance of my time.
    Ms. Lofgren. The gentlelady yields back.
    We have been called for votes, but I think we can go to one 
more individual for questions, and that would be Mr. Stanton 
from Arizona, who is recognized for five minutes.
    Mr. Stanton. Thank you. Securing the border and treating 
children humanely are not competing values, and this 
administration's family separation practice deeply concerns me. 
I am a father with two children, 9 and 12, and the stories that 
I have heard, situations that I have witnessed, they tug at the 
heart. And I am trying to best understand how this 
administration and the agencies who carry out this practice 
believe it is acceptable.
    Just last week I visited an Office of Refugee Resettlement 
shelter in Phoenix that was specifically for children under the 
age of 5, a tender-aged children. And let me be explicitly 
clear--this was not a shelter for teenage moms and their 
babies. It was a shelter specifically designed for babies and 
young children who had been separated.
    When I walked into the nursery I saw babies as young as 10 
months old, held in government custody, cradled by adults 
unknown to them. ORR staff informed me that each child had been 
separated from their families and that several had been 
separated from their parents. I want to use my time today to 
follow up on what I saw and what I heard.
    Director Hayes, how many ORR-funded shelters are in our 
country specifically for tender-aged children, 5 years old and 
under?
    Mr. Hayes. I don't have that exact number, sir, but I would 
be happy to get back to you. I know we have almost 170 shelters 
and facilities across the whole nation.
    Mr. Stanton. I appreciate that.
    Mr. Hayes. Yes, sir.
    Mr. Stanton. The facility I visited in Phoenix started to 
take in children from the border just five weeks ago, and ORR 
staff informed me that there are plans to contract with a 
second facility for tender-aged children in the near future.
    Director Hayes, yesterday you testified before the 
Appropriations Subcommittee that HHS plans to double its 
permanent bed capacity to 20,000 by December 31, 2020. Who 
projected this increase and what is the basis for the 
projection?
    Mr. Hayes. So, thank you for the question, Congressman. I 
would say that that is a number that we have used in reference 
to being up to 20,000. It is not quite doubled. We have about 
12,000 permanent licensed beds in our shelter. As I said 
earlier in my testimony today, it is the commitment of myself 
and Assistant Secretary Lynn Johnson at the Administration for 
Children and Families, along with Secretary Azar, that we have 
plenty of permanent, state-licensed facilities in partnership 
with the states and the communities that you represent, in 
order to provide care for these children that are referred to 
us.
    Mr. Stanton. Of the 20,000 that you mentioned, how many are 
tender-aged children? How many tender-aged children do you 
estimate, or will receive between now and December 31, 2020?
    Mr. Hayes. I don't have an estimation on that, sir.
    Mr. Stanton. Director Hayes, on July 3rd, an HHS 
spokesperson said that the Trump administration was evaluating 
vacant properties that would serve as a permanent housing 
facility for unaccompanied children, looking at Phoenix, 
Dallas, Atlanta, Houston, or San Antonio area. Since the 
announcement, my staff has learned that Atlanta is no longer 
under consideration. Is Phoenix still under consideration for 
such a facility?
    Mr. Hayes. Yes, sir, and to be specific, Congressman, those 
facilities are what we would consider at the sub-prospectus 
level in partnership with GSA, trying to identify both smaller 
and medium-sized shelters that we can get licensed in the 
respective state.
    Mr. Stanton. Okay. I will be following up. I am short on 
time but I will be follow up with a lot more specifics about 
the decision-making----
    Mr. Hayes. Absolutely.
    Mr. Stanton [continuing]. On where that facility will be 
located.
    Mr. Hayes. Arizona is a fabulous partner with ORR in the 
care of these children.
    Mr. Stanton. Several children arrived sick at the ORR 
facility I visited. Staff said they don't believe DHS is 
supposed to transfer sick children to their custody, but their 
experience is that DHS employees give children Tylenol to 
merely mask the symptoms and still transfer over the sick 
children to them. Those are their words, not mine.
    Chief Hastings, why are so many children sick when they 
leave DHS custody and are placed into ORR facilities?
    Mr. Hastings. So sir, we have received an incredible 
amount, as I mentioned earlier, 66,400 UACs so far this year. 
We have done the best we can. I gave the numbers of how we have 
increased our medical capabilities across the border, and we do 
the best we can to get individuals who are sick basically out 
of our care and into secondary health care facilities whenever 
possible.
    So we are doing the best we can with the resources that we 
have, and we are not, to my knowledge, turning over sick kids.
    Mr. Stanton. The youngest baby I saw was 10 months old--10 
months of age. Chief Hastings, what specific training do Border 
Patrol agents receive for separating a baby who might still be 
breastfeeding?
    Mr. Hastings. Sir, I don't know what the specific event is 
about. I would want some more details. But, I mean, again, the 
thing that we want to do--and you have heard the rest of the 
board give testimony as well--is get them out of Border Patrol 
custody, into the proper HHS facilities to deal with this 
incident. But I don't know any of the details.
    Mr. Stanton. Breastfeeding wasn't specific to one child. It 
involves all children of that age. And so I will follow up and 
ask more in writing and hopefully get answers from you about 
what training you are giving to Border Patrol agents as it 
relates to separating children who maybe still breastfeeding 
with their mothers.
    I yield back.
    Ms. Lofgren. The gentleman yields back.
    I note that although we have five minutes remaining, only 
50 people have voted so far, so we will ask the gentlelady 
from--who is next?--from Pennsylvania--all right.
    Then we will go to the floor for votes and we will recess. 
We will reconvene promptly after votes. But since there is a 
15-minute vote and two 5-minute votes, probably we won't get 
back until 1:40. So you can go downstairs, get a cup of coffee 
or a snack, and we will see you right after votes.
    Thank you. We are in recess.
    [Recessed.]
    Ms. Lofgren. We are checking to see if our friends on the 
other side of the aisle are back yet. But because we have a 
very tight schedule and the next person to ask a question is a 
member on our side of the aisle, I am going to turn to the 
gentlelady from Florida, Ms.--oh, she has yielded her time.
    Ms. Jackson Lee. Not her time, but her place.
    Ms. Lofgren. Not her time, but her place in line to the 
gentlelady from Texas, Ms. Jackson Lee, who will be recognized 
for 5 minutes.
    Ms. Jackson Lee. I am most grateful, first of all, to my 
colleague from Florida who yielded--because I know her 
passion--not her time, but her place in line. And I thank the 
chairwoman for her leadership, and I want the members of the 
witness panel to realize this is a bipartisan hearing of 
Judiciary. And I have eternal optimism, and I believe that we 
will find a resolution to getting it right.
    And the only thing that I ask, I am a lifer on the Homeland 
Security Committee. That means that I have been on the 
committee since 9/11, and I have engaged with CBP, Border 
Patrol, for all of those years, and I have been to the border 
in any number of presidential leadership, which includes 
President Clinton, President George W. Bush, and of course, 
President Obama.
    I have seen the surges. I have seen the increases in the 
numbers of children. I have seen unaccompanied children. My 
colleague from California and myself, I think, Congresswoman, 
if you remember, late at night we were at a bus, as we were 
seeing the numbers of unaccompanied children come down. I think 
it was about 2014 or so.
    And it was even earlier than that, and I believe that we 
began with her leadership to write the structure for HHS that 
was not in place before. We were hoping to do a good thing. So 
let me--and it was. But let me go to you, Director Hayes, and 
ask you what is the census that you now have of unaccompanied 
children that are basically detained in these facilities by way 
of--having them sent to you by way of ICE?
    Mr. Hayes. So I don't have the specific number sent to us 
from ICE, but I can tell you as of this morning, we have 9,984 
children in our care at the shelters of HHS, ma'am.
    Ms. Jackson Lee. And do you know how many of those children 
have been there over 100 days?
    Mr. Hayes. I don't have that exact number, ma'am, but I 
will be happy to get that back to you. I will note that we have 
approximately 3,200 Category 4 children in our care right now, 
which means there are no----
    Ms. Jackson Lee. I am sorry?
    Mr. Hayes. Category--approximately 3,200 as of last Friday 
that are Category 4, which means there is no identifiable 
sponsor at this time in the United States. But we will get you 
the answer on the 100-plus days as well, ma'am.
    Ms. Jackson Lee. And do you know how many of those are in 
the recent--say, January 2019, are they recently, recently 
unaccompanied? Have you brought together all of the family 
members of unaccompanied children?
    Mr. Hayes. Since--since----
    Ms. Jackson Lee. Since January 2019.
    Mr. Hayes. I would say, no, that we have not. Again----
    Ms. Jackson Lee. All right. So I would want a report on 
that. Let me go to this because I don't have time. This past 
Saturday, I went to the Casa Sunzal Southwest Key's program 
that has suffered enormous protests in my district. And we went 
with just myself and one staff with permission after being told 
for 2 weeks that you had to have a process. I take issue with 
that process, and I want to have a written document on what the 
process is for Members to visit.
    In the course of it, we saw a young man, and when we went 
in, we asked the young people how many wanted to speak to us. 
But we had a general conversation of, you know, we are 
supporting you, we wish you well, et cetera. We have a 
gentleman, Seli, 4 months in detention. We have another one 3 
months in detention.
    And at the same time, we had two staff persons--Dino 
Federico, Jose Gonzalez--who were blocking--of your HHS, who 
were blocking a Member of Congress from talking to young 
people, not talking about legal matters, but talking about what 
their issues were and to say how long they have been there. 
What is your policy for disrespectful staff that was blocking 
the regular staff, the staff of the detention center, from 
engaging in positive conversation to help us move this process 
along?
    Mr. Hayes. Well, I will just say first off, Congresswoman, 
I would not want to hear of any of my staff being 
disrespectful. I am aware of your visit over the weekend, and I 
believe that my team would classify what happened at the 
shelter in a slightly different way than you would, ma'am, with 
all due respect.
    In regards to Members of Congress interacting with the 
children, we have never stopped that. I have escorted several 
Members of Congress and allowed them to interact with the 
children. But sitting down and having personal, you know, 
conversations with these children, we do not allow that.
    Ms. Jackson Lee. Well, I want a full report. I hear you 
gaveling, Mr. Chairman, but this is very important. I want a 
full report. I want a meeting, and I want you to hear the truth 
because your employees were atrocious, and I am saying it on 
the record.
    So whatever they might have characterized, I was interested 
in helping the children. You have 9,000 children there?
    Mr. Hayes. No, ma'am.
    Ms. Jackson Lee. Excuse me. You have 9,000 children in the 
system.
    Mr. Hayes. Yes, ma'am.
    Ms. Jackson Lee. You have little Roger that was taken away 
at 9 months old. You have children that you cannot identify any 
relative that was taken away under this administration. And as 
well, you have children that you cannot find one person to 
associate. You are backlogged, and you have children there that 
are longer there than 100 days. You are backlogged.
    So you need to look into your own glass house, and I expect 
to have you in my office to hear what processes you have in 
place, and so you can hear, rather than a written document, of 
individuals who were inappropriate because the staff people 
there finally, my final words, were perfectly okay. There was 
nothing untoward going on, including taking pictures with me.
    So your staff were out of order. And whatever they might 
have reported to you, you need to be in my office so we can 
understand each other.
    I yield back, Mr. Chairman.
    Chairman Nadler. The gentlelady yields back. The gentlelady 
from Florida is recognized.
    Ms. Mucarsel-Powell. Thank you, Mr. Chairman.
    Mr. Hayes, this is not the first time we meet.
    Mr. Hayes. No, ma'am. Good to see you again.
    Ms. Mucarsel-Powell. Good to see you. I want to talk to you 
about Homestead.
    Mr. Hayes. Yes, ma'am.
    Ms. Mucarsel-Powell. And the first quick point that I just 
want to ask you, it has been brought to my attention that the 
City of Homestead has sent multiple requests to your office 
particularly talking about the name of the facility, and they 
haven't received any responses.
    You can imagine what it is doing to this thriving community 
that I represent, that I am very proud to represent. Are you 
willing to please make a quick response to the City of 
Homestead officials?
    Mr. Hayes. Yes, ma'am. I will respond back to the mayor.
    Ms. Mucarsel-Powell. Thank you.
    So on May 29th, you gave me a tour of the Homestead 
detention facility, and you told me that you did not at that 
time have a hurricane plan. I have been continuously asking for 
a hurricane plan, and just 24 hours ago, right before the 
hearing, I was finally able to receive the hurricane plan. So I 
am grateful for that.
    Mr. Hayes. Yes, ma'am. And if I may, I believe we are going 
to be briefing you in person with my emergency management team 
in a couple of weeks down in your district.
    Ms. Mucarsel-Powell. I am going to be down on Saturday.
    Mr. Hayes. Okay.
    Ms. Mucarsel-Powell. So maybe someone can do that on 
Saturday.
    A month ago, you also told me the last time that I visited 
that there were over 2,700 kids at the facility. But according 
to your office, now nearly 1,400 kids have been moved out of 
Homestead just in the past 2 weeks. So I have a lot of 
questions.
    Mr. Hayes. Yes, ma'am.
    Ms. Mucarsel-Powell. And I don't know if you were able to 
see my letter that I sent to you on July 5th with over 50 
questions to your office, which I have yet to receive a 
response from your office on that. And----
    Mr. Hayes. We have seen it, ma'am, and we are working on 
those responses.
    Ms. Mucarsel-Powell. Yes, it has been over 3 weeks. And Mr. 
Chairman, I would like to ask for unanimous consent to 
introduce this letter for the record.
    Chairman Nadler. Without objection.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Mucarsel-Powell. So when I toured the facility, I met 
several kids there that had been separated from their families 
at the border. So the family separation policy that you say 
that is not happening anymore continues to happen. I know that 
for a fact because I spoke with some of the children.
    So my first question to you, Mr. Hayes. How were you able 
to move 1,400 kids in 2 weeks?
    Mr. Hayes. I think that is a great question, ma'am. We did 
it in two ways. Number one, the capacity at----I just want to 
clear one thing. The capacity at Homestead was never above 
2,700. That was the max capacity we are able to take there, and 
we didn't quite get there.
    In regards to the number of children that we moved, that we 
did two things. I would specifically point to the fourth 
operational directive that I--that we have spoken about and you 
are aware of where, at this time, a recommendation put forward 
to me by the team, the field team at ORR, and then further 
considered input forwarded by the senior career staff of the 
Office of Refugee Resettlement, where we are at this time 
treating grandparents and adult siblings the same way we would 
in our background check process, as moms and dads----
    Ms. Mucarsel-Powell. So let me interrupt you there. So----
    Mr. Hayes. If I may finish, please, ma'am? And also the 
numbers have significantly dropped in referrals coming into--
into us as well.
    Ms. Mucarsel-Powell. That is not the story that I heard 
last time. That you were getting more referrals is what I heard 
about a month ago, that you were expecting 500 more kids to go 
to Homestead. So let me just ask you, how many of those kids 
were moved with family members? Out of the 1,400 kids, how many 
of them are with family members?
    Mr. Hayes. So the overwhelming majority of them are, ma'am. 
The number I know when we were down there last week with a 
CODEL, it was about 900 that we had moved. And about 80 to 90 
of them had been transferred to other licensed permanent 
shelters because they were long-stayers or what we refer to as 
Category 4.
    Ms. Mucarsel-Powell. So can I get a list of that? I would 
like to----
    Mr. Hayes. Sure. We can break that down by category, and we 
will go ahead and update it with the number 1,400, ma'am.
    Ms. Mucarsel-Powell. So why are you still holding close to 
900 kids at the detention facility?
    Mr. Hayes. At the Homestead influx shelter right now, we 
are working to bring that census down just as quickly and 
safely as we can. One of the things that we have done, again, 
we have not designated any children to Homestead since July 
3rd, and we have not designated any children to our other 
influx shelter, Carrizo Springs, since July 17th.
    I have got approximately 800 to 900 permanent beds that are 
set up for teenagers as of a couple of days ago. And if I were 
to move all of those children immediately into those other 
permanent beds, that would put me in a situation where I would 
have----
    Ms. Mucarsel-Powell. I don't that much time, Director 
Hayes. I want to move very quickly on a couple of points.
    Mr. Hayes. Okay.
    Ms. Mucarsel-Powell. The kids that are turning 18, are you 
still sending them to ICE in shackles on the day of their 
birthday?
    Mr. Hayes. We are not sending any children to ICE. As we 
have talked about numerous times, ma'am, when the child turns 
18, our statutory authority over that child ends, and they 
refer back to the custody of DHS.
    Ms. Mucarsel-Powell. But they have been referred to ICE in 
shackles. Correct?
    Mr. Hayes. They are not referred to ICE. They are required 
to go back to ICE because they are no longer children at that 
time.
    Ms. Mucarsel-Powell. In shackles on their 18th birthday?
    Mr. Hayes. I would defer to my colleagues at ICE to how 
they process children that age out.
    Ms. Mucarsel-Powell. And very quickly, the private for-
profit company, Caliburn----
    Mr. Hayes. Yes, ma'am.
    Ms. Mucarsel-Powell [continuing]. Which John Kelly is the 
person that--one of the architects of the family separation 
policy is now on the board of Caliburn. How did they get a $340 
million non-bid contract, especially when you just said that 
you were running out of resources. And this was early May 
before we passed the supplemental bill--$340 million no-bid 
contract to Caliburn, when John Kelly, who started the family 
separation policy, is on the board of this company. Explain 
that to me, please.
    Mr. Hayes. So my response to that would be, ma'am, that the 
company, Comprehensive Health Services, and that original 
contract was chosen back in December of 2015, long before Jim 
Kelly was involved in the administration, and it is an 
operation and a program that we have maintained into this one.
    Ms. Mucarsel-Powell. How long is that contract for?
    Mr. Hayes. It expires November 30th of this year, ma'am.
    Ms. Mucarsel-Powell. Well, are you willing to commit today 
that you are right now in the process of closing down the 
detention facility that is located at Homestead?
    Mr. Hayes. I will not commit that we will close it down, 
but you do have my commitment that we are working at this very 
moment to reduce the census down to zero just as quickly, but 
as safely as we can. But again, in order to meet the child 
welfare mission that we have at ORR, I want to be able to take 
kids as quickly as possible from the Border Patrol stations. We 
want to put them in permanent beds, but if we don't have 
permanent beds----
    Ms. Mucarsel-Powell. Well, look, I have spoken with so many 
kids, many of them that have been there for months. And I know 
that you have been now recently, because of my oversight, 
reduced the length of time that the kids have been in 
Homestead. Thank goodness that we have brought awareness to 
this issue. If not, we would see 3,000 kids in Homestead that 
are there without being reunified with family members. I know 
that most of them have family members in this country.
    Thank you. And I really do expect answers to my 51 
questions.
    Mr. Hayes. Yes, ma'am.
    Chairman Nadler. The time of the gentlelady has expired. 
The gentlelady from Pennsylvania.
    Ms. Dean. Thank you, Mr. Chairman.
    I want to clarify the record, and to follow up on what my 
good colleague was just asking you about, I was at Homestead on 
July the 2nd. We were in your command center, where you rather 
proudly--or the folks there rather proudly showed us a screen 
of the last 14 days before a child ages out of Homestead. It 
was a bar chart, and it showed on the very day we were there, 
one child was aging out.
    And we asked what happens to that child? They said we have 
been in touch with ICE the entire time. ICE will pick that 
child up today.
    We said it has been reported that they leave in shackles. 
Is that so? The commander of that center, the private 
commander, the director of the center for Caliburn said that is 
so.
    So I will want an answer how many children have been sent 
out of Homestead over the course of this administration, over 
the course of your care there, where they are being housed for 
$775 a day per head, and then they get the birthday gift of 
being taken out in shackles.
    So I hope you will provide that exact number to this 
committee.
    Mr. Hayes. How many have aged out? Yes, ma'am.
    Ms. Dean. How many have aged out. And as I said----
    Mr. Hayes. Going back to the history of the program.
    Ms. Dean [continuing]. We got clarity. They go out in 
shackles. Happy 18th birthday from this administration.
    I wanted to see if anybody could help me get the scope of 
this problem, the numbers. How many children have been 
separated since the time Donald Trump was sworn in until this 
day? So pre-zero tolerance, post? What is the census? Does 
anybody here have that number?
    Mr. White. Ma'am, I can--I think I am best positioned to 
give you the----
    Ms. Dean. Thank you.
    Mr. White [continuing]. State of that answer.
    Ms. Dean. Thank you, Commander.
    Mr. White. So to do that, you have to look at three 
distinct periods of time. The first is children who were 
separated by DHS, referred to ORR, and had already been 
discharged to a family member or otherwise discharged before 
the court order. We don't know how many of them there are. We 
are in the process of finding that out.
    As we have gone----
    Ms. Dean. The fact there were some separated before zero 
tolerance was enacted. Is that correct?
    Mr. White. It is absolutely the case that there were 
significant separations prior to the announcement of zero 
tolerance. We in ORR observed an increase far above the 
historic norm starting in July of 2017.
    Ms. Dean. I hope you will forgive me. Can you give me round 
numbers, just total numbers, a census? Because I do want to 
talk about conditions I observed in Texas when I visited there 
on the 1st of July.
    Mr. White. So here is what we can tell you. During what we 
call the legacy class period, we know that number, as we 
reported to the court, is 2,814. We don't yet know, but we are 
in the process of finding out and have a court deadline of 
October 25th, to answer how many were referred after July 1, 
2017, and discharged before the court's order. The number we 
have--and we provide that on a rolling basis to the ACLU. As of 
last night, that number was, and I think I gave it earlier, I 
believe 981.
    Ms. Dean. Okay.
    Mr. White. Then there are the children who were separated 
and referred after June 26th, and Director Hayes provided that 
number earlier. So the best answer to your question is nobody 
knows yet.
    Ms. Dean. Nobody knows.
    Mr. White. But it is what we have identified in the legacy 
class, and the expansion class thus far is over 3,700 children.
    Ms. Dean. Okay. Do you have an exact census on how many 
children were separated by this administration, Mr. Hastings or 
Chief? And then I need to move on to something else.
    Mr. Hastings. Ma'am, as I said earlier----
    Ms. Dean. Yes or no, do you have a number?
    Mr. Hastings. I don't have an exact number.
    Ms. Dean. Okay, thank you.
    Let me move on. I wish I had more time because I did have 
the sad privilege of visiting Texas, El Paso Border Station No. 
1 and also Clint. Clint is an insanity. We saw only 25 children 
there. Two and a half months earlier, that facility, which was 
meant for 100 men, topped 700 children. We spotted three 
showers and seven porta-potties. I wonder what it looked like 
with 700 children.
    But let me to go to El Paso Border Station No. 1, where I 
got this, a Jiffy Pop blanket from 1 of 15 women held in a 
cell. We asked when did you come into this cell? They said 
today, this morning. We said how long have you been here? 
Fifty-six days. Where had you been? In temporary housing, not 
inside.
    Fifty-six days. They were brought in because Congress was 
coming in. Six Congress Members stood in their--I counted the 
cinder blocks--10 cinder blocks by 13 cinder block cell, which 
had a low partition and a stainless steel toilet with no seat 
for 15 women.
    We ran the sink. The sink did not work. The women said, oh, 
yeah, we were told to drink out of the toilet. That water is 
clean enough. Two of the women cried because they had been 
separated from their adult daughters. Three of the women were 
sick, two with epilepsy. They were weeping. They were told to 
drink out of the toilet.
    The Border Patrol agents were there with us. They said oh, 
no, no, that is not the case. What happened to those 15 women 
who were brought in only that morning? And by the way, they 
were in sleeping bags inside. We said when did you get the 
sleeping bags. They said 4 days ago, and the guard said, yes, 
they were donated by the Forestry Service.
    For 52 days, that is the comfort they had. No cots, no 
sleeping bags, no personal affects. Cracked lips from exposure.
    That is the way we are handling it. Is that acceptable to 
you, Chief?
    Mr. Hastings. Ma'am, we are doing the best. As I have 
described earlier----
    Ms. Dean. Is that acceptable to you?
    Mr. Hastings. Ma'am, as I said earlier, we are doing the 
best we can with this crisis.
    Ms. Dean. Telling women to drink out of a stainless steel 
toilet?
    Mr. Hastings. Ma'am, there was an open--that door was 
unlocked, and there was an Igloo cooler right in front of that 
door full of fresh water, and they had access to that water. It 
is not acceptable to tell someone to do that, and I don't----
    Ms. Dean. What actions were taken following our visit?
    Mr. Hastings. There are open investigations into the 
incidents into Clint. There are various----
    Ms. Dean. Specifically, how were these women's conditions 
changed? I am not asking about the investigations. How did 
these women's lives change in the custody in the detention of 
the United States of America?
    Mr. Hastings. I can't speak to each one of these women, but 
as I said earlier, we have invested the supplemental funding 
into even more space and to give better services and better 
medical contracts.
    Ms. Dean. Here is the problem. We also visited Clint, and 
in Clint, we saw behind glass--you wouldn't let us anywhere 
near them--six children, little children. We smiled at them. I 
literally held up a piece of paper where I wrote, ``We heart 
you. We love you.''
    Do you know what Border Patrol said to me? ``What are you 
doing? You don't have any right to do that.'' I showed them the 
note, ``We heart you.'' I said we are just trying to 
communicate that somebody on the outside cares about them. We 
are Members of Congress trying to help you.
    The children slipped a note under the door to us. We got 
yelled at because the Border Patrol was worried we were 
slipping notes. We weren't. The children slipped us a note. I 
said please translate that. What does it say?
    In beautiful printing, the children wrote, ``How can we 
help you, Members of Congress?'' Imagine that. The children 
retained their humanity as the guards on the outside because of 
the pressures of this administration, the inhumanity and the 
incompetence of this administration, their humanity is being 
drained out while the children retain theirs. That is my worry.
    Chairman Nadler. The time of the gentlelady has expired. 
The gentlelady from Texas.
    Ms. Escobar. Chairman, thank you so much.
    And I want to first say thank you very much for having this 
hearing. It was shocking to hear the ranking member lament the 
fact that we are having another hearing on child separation. I 
would like to bring to everyone's attention a recent article, 
and I want to just read from it and then ask for unanimous 
consent to enter it into the record.
    ``Approximately one-third of children held in shelters 
operated by the Office of Refugee Resettlement, or more than 
4,000 kids, have been designated Category 4, meaning they have 
no identifiable sponsor in the U.S., CBS News reports. This 
doesn't necessarily mean that the Government hasn't tried to 
find their sponsors, usually relatives or family friends living 
in the U.S., it just hasn't been able to. It also means that 
these children will be held indefinitely until or unless a 
sponsor comes forward.''
    So I would like to ask unanimous consent----
    Chairman Nadler. Without objection.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Escobar. Chief, I asked you earlier, I brought up the 
issue when I was granted extra time earlier about family 
separation that happens when a grandmother is separated from a 
grandchild or an aunt from a niece or nephew. So we know that 
families are being separated that way.
    I also want to ask you about a different type of separation 
that we are seeing in El Paso, and this has been brought to our 
attention by immigration lawyers, where there is a family that 
arrives at the port--a father, a mother, and two children. We 
are now seeing the father and one child returned to Mexico via 
MPP, and the mother and another child allowed to stay in Mexico 
who are not MPP'd. Why would Border Patrol separate a family 
this way?
    Mr. Hastings. Ma'am, I am not sure of the incident that you 
are talking to, and I would say if this was a port of entry, 
which it sounds like they presented at a port of entry, I 
couldn't speak to that. That would be the Office of Field 
Operations.
    Ms. Escobar. Well, I think it is Border Patrol. So it may 
not be--I may have that wrong. But it is Border Patrol, and it 
is not one instance. It has actually been a number of instances 
that have brought to our attention.
    Are you aware of a policy that allows for that?
    Mr. Hastings. That allows for separation to different 
areas? I am sorry.
    Ms. Escobar. Yes, and that--we have a family unit that 
enters together. I don't know if it is between ports or at 
ports. Don't know the entry point. Happy to get you more 
information. But we have more than one case brought to our 
attention by lawyers, where a father and a child is MPP'd, sent 
into Ciudad Juarez to await the asylum hearing, but the mother 
and the child are allowed to remain in the U.S.
    Do you know of a policy that allows for such family 
separation?
    Mr. Hastings. I don't know of a policy, but I would want to 
take a look at what you are describing to have all the details, 
if possible. And I would be happy to take a look and get back 
to you.
    Ms. Escobar. And to the attorney on our panel, can you 
think of any reason to do this?
    Mr. Edlow. In terms of separation of the family, again, I 
would have to defer to the Department of Homeland Security. The 
Department does not have operational control over separation.
    Ms. Escobar. Would there be any reason to have such a 
policy in the El Paso sector, to separate families this way? 
Anybody? No, I agree. There is no valid reason to separate 
families in this way.
    Chief, how do you all track the innumerable number of 
families that are separated this way and in other ways? 
Especially as Representative Lofgren mentioned earlier, 
nonverbal kids, how do you track them?
    Mr. Hastings. So as I said earlier, we track them 
carefully. But I should explain one thing that I didn't 
earlier. Every individual that is taken into our custody, this 
isn't just we make the instant decision. We roll the prints. We 
enter the biometrics. We check all of the systems of record 
that we have.
    In some cases, we have agreements with other parties 
outside of the U.S. We check those systems as well. And so 
before any action is taken, we do due process to make sure that 
we have the records of the individuals that we have arrested, a 
good understanding of what the records, what they may have 
done, criminal activity or otherwise, prior to making any 
decisions.
    After the decision is made, there is a criminal record or 
the individual----
    Ms. Escobar. But I am not asking about what leads up to it, 
and my time is running out. How do you track children once they 
have been separated?
    Mr. Hastings. So we pass the information on to ORR and work 
with HHS.
    Ms. Escobar. And every single child is now tracked, every 
single one?
    Mr. Hastings. We track them, yes.
    Ms. Escobar. Okay. One final question because my time is 
just about up. Has anyone ever been held accountable for 
botched family separations? Anybody.
    Mr. Hastings. To my knowledge, no. But I don't know of a 
botched family separation.
    Ms. Escobar. That is what I thought. Thank you.
    Thank you, Chairman. I yield back.
    Chairman Nadler. The gentlelady yields back. The gentleman 
from California.
    But before the gentleman from California goes, I must 
stress my astonishment. You don't know of a single botched 
family separation? Your press has reported hundreds of kids who 
cannot be identified. Those are botched.
    The gentleman from California.
    Mr. Lieu. Thank you, Mr. Chair.
    And to the witnesses, thank you for being here today.
    I would like to start off asking about the case of Sophie, 
who was a 3-year-old. She crossed the border last year with her 
grandmother. They went to a legal point of entry in Texas, and 
this was after the President had purportedly already ended the 
family separation policy.
    Her grandmother carried guardianship documents. This is 
according to a PBS article. Her grandmother also had Sophie's 
birth certificate and her asylum request. Nevertheless, she was 
separated.
    Sophie's mother was here in the U.S. legally. For days, 
they had no idea where she was. Eventually, they tracked her 
down in Pennsylvania. I am going to show you on a video what 
happened on Day 47. So if we could play the video?
    [Video playing.]
    Mr. Lieu. Chief Hastings, Sophie is not a criminal or a 
national security threat to the United States as a 3-year-old. 
Correct?
    Mr. Hastings. I don't know the background in this case, 
sir.
    Mr. Lieu. Do you know any 3-year-olds that are criminal or 
national security threats to the United States?
    Mr. Hastings. No, I don't.
    Mr. Lieu. Okay. Sophie's grandmother was not a national 
security or criminal threat to the United States. Correct?
    Mr. Hastings. I don't know--again, I don't know the 
background of what her grandmother or relatives were.
    Mr. Lieu. So I want to ask your agency questions. If you 
would agree, could you provide us information about this 
specific case?
    Mr. Hastings. We will certainly provide information if 
you--I don't have the details on this case.
    Mr. Lieu. All right. Thank you.
    So according to the PBS article, it took 47 days to reunite 
Sophie, and eventually, the mother was allowed to call Sophie 
one time a week. And eventually, on the phone, the mother 
noticed that Sophie started to change, that she seemed to want 
to hang up quickly, and her mother was worried that Sophie had 
given up on seeing her family again.
    So I want to show you now a second video about what happens 
with family separations. Can we play that video as well?
    [Video playing.]
    Mr. Lieu. Earlier at the hearing, Congresswoman Lucy McBath 
talked about the American Academy of Pediatrics statement 
opposing separation of children and parents at the border. She 
asked Chief Hastings about it. He was not familiar with that, 
nor the research. So I am going to ask Commander White about 
this statement.
    The AAP says that separating children from their parents 
contradicts everything we stand for as pediatricians, 
protecting and promoting children's health. In fact, highly 
stressful experiences like family separation can cause 
irreparable harm, disrupting a child's brain architecture and 
affecting his or her short-term and long-term health. This type 
of prolonged exposure to serious stress, known as toxic stress, 
can carry lifelong consequences for children.
    Are you familiar with that statement?
    Mr. White. I am familiar with that statement. I agree with 
it. It reflects accepted scientific fact. The images you have 
shown are consistent with what we would expect to see in 
children in that age group who have experienced family 
separation and speak to the potential harms that separation 
inflicts on children.
    Mr. Lieu. Thank you very much.
    I am going to ask whatever administration official has this 
information if you could provide it to us. Recently, it was 
reported that an 18-year-old U.S. citizen was detained by 
border officials, Francisco Erwin Galicia. During the 23 days 
he was in the custody of the U.S. Customs and Border Patrol, he 
was not allowed to shower. He also said he lost 26 pounds 
during his time in detention.
    He also said he slept on the floor, sometimes with aluminum 
foil blankets. Some had to sleep in the bathroom area. If we 
could get information of why this U.S. citizen was detained, 
that would be helpful.
    Mr. Hastings. Yes, sir, and I can give you some 
preliminary. The individual came through the Falfurrias 
checkpoint, and upon--he came through with other illegal 
aliens. The individual claimed to be a Mexican national who was 
born in Reynosa, Mexico.\6\
---------------------------------------------------------------------------
    \6\ Mr. Hastings requested this be changed to, ``My understanding 
is, the individual claimed . . .''
---------------------------------------------------------------------------
    Throughout the process and while he was with Border Patrol, 
he claimed to be a national, a citizen of Mexico, with no 
immigration documents to be in or remain in the U.S. Upon 
further investigation, we also found that he had a border 
crossing card, and that border crossing card he had used 53 
times to cross the border into the U.S., which further--gives 
us further indication that he was not a U.S. citizen. At no 
time in Border Patrol custody did he say that he was a U.S. 
citizen.
    Mr. Lieu. Thank you. And if we could get additional 
information from the agency, that would be great.
    Mr. Hastings. Yes, sir.
    Mr. Lieu. Appreciate it. I yield back.
    Chairman Nadler. I yield to Ms. Dean for a unanimous 
consent request.
    Ms. Dean. I seek unanimous consent to enter upon the record 
articles that were presented by Mary Gay Scanlon, 
representative, my colleague from Pennsylvania, without 
objection.
    Chairman Nadler. Without objection.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler. And Chief Hastings, let me ask you one 
question before we adjourn the hearing--oh, Mr. Swalwell?
    Mr. Swalwell. Yes.
    Chairman Nadler. You are recognized.
    Mr. Swalwell. Thank you, Chairman.
    And following up, Chief, on Mr. Lieu's questioning, isn't 
it true, though, that Mr. Galicia's mother showed CBP Mr. 
Galicia's birth certificate?
    Mr. Hastings. To my knowledge, that was not CBP. I believe 
that was ICE, and ICE made the final decision. So I wouldn't 
want to say what took place after he was in ICE custody. I am 
just speaking to what happened while he was in CBP, Border 
Patrol custody.
    Mr. Swalwell. So what is CBP doing, now that we know that 
this is something that could occur, to reduce the likelihood 
that CBP would detain a U.S. citizen?
    Mr. Hastings. As I said before, that individual claimed 
that he was a Mexican national, and we did run the proper--
through all our systems and saw that he had crossed by a border 
crossing card, which gives indication that he was, indeed, a 
Mexican national.
    Mr. Swalwell. Thank you, Chief.
    Ms. Shaw, has your office ever received information or 
looked at the extent to which ICE and CBP mistakenly could 
detain a U.S. citizen?
    Ms. Shaw. I don't have information about specific cases, 
but I do know that we have learned anecdotally that it has 
happened. I don't believe that we have prior work in this area, 
and I can confirm we don't currently have ongoing work.
    Mr. Swalwell. Chief Hastings, I want to go back to 
something Mr. Johnson talked to you about earlier, which is the 
Facebook group. And first, I want to say, you know, I am the 
son of a police officer. I worked as a prosecutor. My brothers 
today work in Alameda County as police officers, and I have 
great respect for the sworn men and women at CBP.
    But I have also been troubled by what I have seen at the 
border, at detention facilities, a lack of access that Members 
of Congress have been given when we have tried to present at 
facilities. But I was really troubled by the Facebook group, 
just because I think it undermines the good work that the 
overwhelming majority of CBP officers are trying to do on a 
day-to-day basis.
    Just as many times you see people in the immigration 
debate, they will take the crimes that immigrants commit, and 
they will try and project that on the whole immigrant community 
and say that every immigrant is going to commit a crime. We 
know that is certainly not the case.
    But when a Facebook group like this exists, it makes it 
really hard for us to have confidence that CBP officials are 
able to carry out their duties with fairness and with 
compassion for the people that they are charged with taking 
care of and keeping in custody.
    So when do you expect a review to be completed, to follow 
up on Mr. Johnson's question.
    Mr. Hastings. So as I said, we have taken quick action with 
the cease and desist letters, quick action with the 
administrative duties that we have prescribed in the most 
egregious cases. And we have also, as I said, OPR and OIG are 
leading the charge on finishing, completing those 
investigations quickly, and we anticipate they will be done 
quickly.
    Mr. Swalwell. And Chief, I believe that there is so many 
additional--first, I just want to back up and say it is my 
belief that families should not be separated, that there are 
families in the United States who are related to many of these 
individuals and that is the best place for them to go. But 
while this administration's policy is in place, I recognize 
that it is straining the resources you have, and I have met 
with your officials. I have been on tours with them.
    Do you believe that in addition to making sure that there 
are beds and food and shelter for the people that you are 
detaining, that your own officers may need trauma counseling or 
additional resources for trauma counseling to prevent what we 
are seeing on these Facebook pages?
    Mr. Hastings. We do offer employee assistance. It is 
completely voluntary. It is completely available to all agents 
without management knowing, and that is one of the many things 
we offer to our agents.
    Mr. Swalwell. Have you seen an increase, though, in those 
taking you up on those services over the last few years as the 
number of people in CBP custody has increased?
    Mr. Hastings. The EAP services I spoke to are confidential. 
So I don't see the reports of how many agents are taking 
advantage of that--that program.
    Mr. Swalwell. And again, I believe that this is almost 
primarily a mess of the President's making. We expect, though, 
that CBP officials would conduct themselves, you know, 
professionally and with compassion. But I can just imagine with 
the conditions that I have seen, not only the toll it is taking 
on the immigrants who are being detained, the children who are 
being separated, but also the CBP officers who live and see 
this every day.
    And I would hope that we can find a way, Mr. Chairman, to 
see if there has been an increase in those seeking counseling 
because, again, everyone involved in this mess this President 
has made I think is going to have to live with the long-term 
effects.
    And I would yield back.
    Chairman Nadler. The gentleman yields back. The gentlelady 
from Pennsylvania--from Texas.
    Ms. Garcia. Mr. Chairman, I just wanted to submit for the 
record, ask unanimous consent that three articles related to 
first one about a 16-year-old child's death, another one about 
the conditions that demonstrate that the conditions were not in 
the best interests of the children, and also one on ICE opening 
three new detention centers, all for the record.
    Chairman Nadler. Without objection.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Garcia. Thank you.
    Chairman Nadler. This concludes today's hearing. We thank 
all of our witnesses for participating.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions for the witnesses or 
additional materials for the record.
    And with that, without objection, the hearing is adjourned.
    [Whereupon, at 2:49 p.m., the committee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                         [all]
</pre></body></html>
